<html>
<title> - U.S. INVOLVEMENT IN AEROSPACE RESEARCH</title>
<body><pre>[Senate Hearing 108-816]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-816

                 U.S. INVOLVEMENT IN AEROSPACE RESEARCH

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                    U.S. GOVERNMENT PRINTING OFFICE
96-511                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             Subcommittee on Science, Technology, and Space

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK LAUTENBERG, New Jersey


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2003................................     1
Statement of Senator Allen.......................................     3
    Letters dated February 5,7,10, and 25, 2003 in support of the 
      Allen-Dodd bill............................................ 4,5,6
Statement of Senator Brownback...................................     1

                               Witnesses

Bolen, Edward M., President and CEO, General Aviation 
  Manufacturers Association......................................    35
    Prepared statement...........................................    38
Creedon, Dr. Jeremiah, Associate Administrator, Office of 
  Aerospace Technology, National Aeronautics and Space 
  Administration.................................................    17
    Prepared statement...........................................    19
Dietz, Dennis, Director, Manufacturing Research and Development, 
  Boeing Commercial Airplanes, Wichita Division..................    42
    Prepared statement...........................................    44
Dodd, Hon. Christopher J., U.S. Senator from Connecticut.........     7
    Prepared statement...........................................    10
Tomblin, John, Ph.D., Executive Director, National Institute for 
  Aviation Research, Wichita State University....................    47
    Prepared statement...........................................    49
Walker, Hon. Robert, S., Chairman, Commission on the Future of 
  the U.S. Aerospace Industry, and Chairman, Wexler and Walker 
  Public Policy Associates.......................................    12
    Prepared statement...........................................    15

                                Appendix

Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  prepared statement.............................................    61

 
                 U.S. INVOLVEMENT IN AEROSPACE RESEARCH

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2003

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. I call the hearing to order. Thank you 
all for joining us here today on the opening hearing about the 
U.S. involvement in the aerospace research area. I anticipate 
holding several hearings on this, and I think there will be 
some other members joining us throughout the hearing time. I am 
pleased that those of you here could join us today.
    A hundred years ago, a great journey with unlimited promise 
began in this country, and that was the journey of powered 
flight. Through this journey we have led the world in amazing 
technological advances and the development of innovative 
products and services. As we celebrate the great successes of 
the past one-hundred years, let us reflect on where we have 
been and turn to where we need to go.
    On December 17th, 1903, the Wright Brothers made history 
with a 12-second flight over the sand dunes of Kitty Hawk, 
North Carolina. Since then, flight has gone through the plains 
of Kansas and out across America. In the 1920s and early 1930s, 
some of the original aviation entrepreneurs, Clyde Cessna, 
Walter and Olive Ann Beach, Lloyd Steerman, formed the 
companies that continue to be the leaders in general aviation 
today. The industry continued to soar over the plains with the 
addition of the Boeing Company through its purchase of the 
Steerman aircraft in 1929 and a major expansion of a Kansas 
presence during World War II. This journey encompassed the 
continued development of U.S. military, commercial, and general 
aviation industries throughout the 1930s, 1940s, and 1950s that 
set the standard for the world.
    The journey of flight continued as Americans continued to 
push the envelope. In 1947, Chuck Yeager broke the sound 
barrier and established a leadership role in the infancy of the 
jet aircraft age. This propelled us to the next step that leads 
us to the stars with the establishment of NASA in 1958, and the 
journey continued, eventually taking us to the moon and the 
triumph of July 20th, 1969, with Neil Armstrong's steps on the 
surface of the moon.
    These wonders of space flight continued through the space 
shuttle, its first flight in 1981, and our current involvement 
with the International Space Station. And while NASA has 
suffered a recent tragedy with the Columbia Shuttle accident, 
we will continue to be the leader in aeronautics and 
astronauts. We must not back down.
    U.S. commercial and general aviation manufacturers have 
made the world open for business with unlimited opportunities 
for travel and commerce. This tells only a fraction of the 
wonderful success story of the U.S. aerospace industry and the 
significant role it plays in our leadership security posture, 
the strength of our economy, and our leadership role in the 
world.
    The current downturn in the U.S. aircraft industry, and I 
have certainly felt it, and my State has felt it, with some 
11,000 jobs lost in my State alone, and the increasingly 
competitive challenges we face in the global marketplace only 
elevates the importance of today's subject matter of aerospace 
research. Aerospace is a technology-driven industry, and U.S. 
leadership in aerospace industry is a direct result of our 
preeminence in research and innovation.
    Government policies and investments in long-term research 
are vital to the maintenance of the United States global 
aerospace leadership. The relationship between industry, 
government, and academia is crucial to the production of new 
products and services.
    With a renewed focus and bold commitment by government, 
industry, and academia, we can help propel this industry to 
even greater heights during the next hundred years of this 
incredible journey. A new era of innovation lies ahead. The 
U.S. must continue to blaze the trail in the areas of 
developing advanced materials and propulsion systems for 
commercial and general aviation, new and innovative air-traffic 
management systems that utilize network-centric systems of 
satellites and ground-based stations, as well as a new 
generation of space vehicles and propulsion.
    I want to welcome our witnesses here today, and I am 
excited to hear what they have to say. Senator Chris Dodd has a 
proposal that he wants to put forward and will speak first, and 
we will have Bob Walker and Ed Bolen, who will share with us 
their thoughts from the Commission on the future of the U.S. 
aerospace industry. Dr. Creedon will enlighten us on the 
position of the Administration. And I am also pleased to 
welcome Dennis Dietz and Bob Tomblin here from my State of 
Kansas. Mr. Dietz will comment on the perspective of industry, 
and Mr. Tomblin will highlight the successful involvement of 
academia in the process. I look forward to their input, and I 
look forward to this leading us towards legislative and some 
hopefully research solutions as to what we should be doing to 
keep the United States' leadership in this aerospace industry.
    I thank my colleague from Virginia for joining us today, 
and I will turn the microphone to him for an opening statement.
    Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman.
    This hearing is very timely, and it is going to provide all 
of us, a wonderful opportunity to discuss the current state of 
the U.S. aeronautics industry as well as what will be necessary 
to ensure the U.S. continues to lead the world in all aspects 
of aeronautics technology. I very much agree with your bottom 
line assessment, and I am glad to see that there are some in 
the Senate who share the views of Senator Dodd and myself.
    I will talk about the measure that Senator Dodd and I 
introduced last year and have reintroduced again, which we 
think goes a long way towards addressing our competitiveness, 
the importance of our military superiority, as well as how 
important it is for our economy that we make the proper 
investments in our aeronautics research and development.
    We have seen, in the last five years, that NASA's budget 
for aeronautics research and development have been literally 
cut in half, from $1 billion to its current level of $500 
million. In making these cuts, the United States has been 
rendered more vulnerable to foreign competition in the field of 
aeronautics. There is nothing wrong with competition. I am 
competitive. But if you are going to compete, you had better be 
investing right and making the right decisions; otherwise, you 
are going to get left behind.
    The nations of Europe, have moved in the exact opposite 
direction, dramatically increasing such funding in an effort to 
enhance their competitiveness in the world's aviation market.
    I commend the commission on the future of the U.S. 
aerospace industry for crafting a comprehensive and frank 
report on the state of the U.S. aerospace industry. I do find 
it disturbing that our aerospace industry is still living off 
research and development initiatives that began during the Cold 
War. If the United States is going to develop the stealth 
aircraft of the 21st century, it must make the commitment to 
research and development.
    This country's ability to lead the world in innovation and 
technological breakthroughs are a direct result of our 
commitment in the past, and it is obviously essential that 
there needs to be significant investment in research and 
development on a sustained and strategic basis. And to make the 
research and development initiatives as beneficial as possible, 
there must be consensus amongst all parties involved on 
priorities and goals and the best path to achieve those goals. 
A commitment to an integrated aerospace policy will also be 
necessary for the United States to remain the global leader in 
cutting-edge aeronautic technology.
    Senator Dodd and I have a great concern with the growing 
atrophy of the Federal commitment to funding for aeronautics 
research. After reviewing the commission's report and 
discussing the pressing issues with many in the aeronautics 
community, I have joined with Senator Dodd to introduce, this 
session again, the Aeronautics Research and Development 
Revitalization Act. This legislation will provide aggressive 
funding authorizations to provide NASA aeronautics program with 
the resources it needs to keep the United States on the cutting 
edge on all aspects of aeronautics and aviation. The United 
States complacency must change now to prevent further damage to 
our competitiveness in aviation.
    The bill that Senator Dodd and I have developed is 
aggressive, and it will require a commitment of significant 
funding for the next five years. However, I believe this money 
will be well spent when considering the positive impact 
aeronautics research and development has on both the U.S. 
economy and on our military.
    We have received strong support for this initiative, Mr. 
Chairman, and I ask consent that the letters in support of the 
Allen-Dodd bill from the Aerospace Industries Association, the 
American Society of Mechanical Engineers, the Boeing Company, 
and Airbus be made part of the record.
    Senator Brownback. Without objection.
    Senator Brownback. Thank you.
    [The information referred to follows:]

          Aerospace Industries Association of America, Inc.
                                  Washington, DC., February 7, 2003
Hon. George Allen,
Russell Senate Office Building,
Washington, DC.

Dear Senator Allen:

    On behalf of the member companies of the Aerospace Industries 
Association of America (AIA), I am writing to thank you for your 
leadership in introducing the Aeronautics Research and Development 
Revitalization Act of 2003. We are solidly behind your effort. If 
enacted, your legislation will help to reverse the long-standing 
decline in Federal aeronautics research funding and help the United 
States preserve its leadership in aerospace technology.
    A measure of the future competitiveness of any high technology 
industry such as aerospace is the degree of investment in research and 
development. AIA has been examining the issue of trends in aerospace 
research and development for the last several years. We have documented 
a significant decline in investment by both the government and industry 
since the mid l980's, which has already begun to undercut the U.S. 
aerospace industry's future contribution to national security and 
national economic prosperity.
    By ramping up aeronautics research and development funding 
increases in NASA and the FAA each year to over $1 billion by fiscal 
year 2007, your bill would reverse these troubling investment trends 
and help set the U.S. aerospace industry on a course of continued 
preeminence in the global market for both the civil and military 
aerospace products. Furthermore, we are pleased that provisions in your 
bill correlate with recommendations in the final report of the U.S. 
Commission on the Future of the Aerospace Industry.
    We urge you to keep up this effort that is so vital to our national 
interest. We stand ready to support you in any way.
        Sincerely,
                                          John W. Douglass,
                              President and Chief Executive Officer
                                 ______
                                 
                      U.S. Aviation Research and Technology
                                                   February 5, 2003
Hon. Christopher Dodd and Hon. George Allen
United States Senate,
Washington, DC.

    Dear Senator Dodd and Senator Allen:

    As leaders in the nation's aerospace, aviation and aeronautics 
community, our organizations, representing major manufacturers and more 
than 1 million scientists, engineers, researchers and professionals, 
strongly endorse the ``Aeronautics Research and Development Act of 
2003.''
    In recent years, we have expressed concerns that reducing federal 
funding for aviation and aeronautics research and technology will 
jeopardize the nation's leadership in providing the technologies needed 
to develop the next generation aircraft, improve aviation safety, and 
security, and attract the next generation of aerospace scientists and 
engineers. Assuring the nation's ability to develop advanced 
technologies for our air defense network is of paramount importance.
    The November 2002 report of the Presidential Commission on the 
Future of the United States Aerospace Industry states, ``The United 
States must maintain its preeminence in aerospace research and 
innovation to be a global aerospace leader in the 21st century,'' and 
that ``Government policies and investments in long-term research have 
not kept pace with the changing world.'' The Commission report 
recommends that ``the federal government significantly increase its 
investment in basic aerospace research, which enhances U.S. national 
security, enables breakthrough capabilities, and fosters an efficient, 
and secure and safe aerospace transportation system'' and that ``the 
Administration and Congress work together to fund a new R&D initiative 
to develop a new 2lst Century air transportation system for the 
nation.''
    According to a recent report on ``The National Economic Impact of 
Civil Aviation,'' the total economic impact of civil aviation exceeded 
more than $900 billion and 11 million jobs to the U.S. economy in the 
year 2000, roughly 9 percent of the total U.S. gross domestic product. 
The National Aeronautics and Space Administration's (NASA) and Federal 
Aviation Administration's (FAA's) budget should reflect this by 
striving for a strong national commitment to aeronautical research. If 
the American public expects the U.S. aviation industry to continue to 
be the largest positive contributor to U.S. balance of trade, then we 
must have the ability to develop the next generation of aircraft that 
will enable it to compete internationally.
    Over the last decade, funding for NASA's aeronautics research and 
development (R&D) program has fallen by approximately 50 percent, and 
unfortunately this trend is continuing, The ``Aeronautics Research and 
Development Act of 2003'' will provide the necessary funding resources 
for NASA to compete with the European Union by implementing a program 
plan for their ``Aeronautics Blueprint-Toward a Bold New Era of 
Aviation.'' We strongly support your efforts to counter the dramatic 
decline in U.S. research and development spending in aeronautics.
    As we approach the centennial of the Wright Brother's first flight, 
it is more important than ever that America renew its national 
commitment to leadership in aviation. We commend you for your 
leadership in introducing this important legislation, and we look 
forward to working with you and other Members of Congress, in re-
establishing the investment in aeronautics research and development as 
a national priority.
                                 ______
                                 
                                         The Boeing Company
                                     Chicago, IL, February 10, 2003
Hon. George Allen,
United States Senate,
Washington, DC.

    Dear Senator Allen:

    We at Boeing want to commend you on your foresight with Senator 
Dodd, in the introduction of the ``Aeronautics Research arid 
Development Investment Act of 2003.''
    Your leadership in ensuring that the United States maintains its 
aerospace leadership is greatly appreciated by this aviation industry, 
which contributes $900 billion annually to the United States economy. 
Together the Federal government and the aerospace industry, working 
hand in hand, can assure our Nation a robust economy, a strong national 
defense, and a better quality of life for our citizens.
    Your bill will enable long-term progress in aeronautics and 
aviation with a continued Federal investment in fundamental 
aeronautical research In addition, growth in productivity and our gross 
domestic product are directly related to an efficient and growing air 
transportation system. Your bill also proposes to aggressively move out 
to modernize our air traffic management system for improved capability.
    We thank you for your vision and foresight and look forward to 
working with you in these areas of great importance to both the Boeing 
Company and our great Nation.
        Sincerely,
                                                David Swain
                                 ______
                                 
                                                     AIRBUS
                                      Herndon VA, February 25, 2003
Hon. George Allen,
United States Senate,
Washington, DC.

    Dear Senator:

    Thank you for affording me the opportunity to review legislation 
recently introduced by you, Senator Chris Dodd and Congressman John 
Larson that strives to reinvigorate the U.S. aerospace industry.
    Airbus is very interested in, and supportive of, many aspects of 
the Aeronautics Research and Development Revitalization Act bill. This 
interest is based on the fact that Airbus, though headquartered in 
Europe, is a global company that has long depended on a vibrant, 
creative and innovative American aerospace industry.
    Today, we are a key player in the U.S. industry--both through our 
U.S. operations in four locations in three states and through our 
investments and procurement with our American business partners. Last 
year, for instance, as a result of the great aerospace engineering 
talent that exists in this country, Airbus established an engineering 
office in Kansas. In Airbus North America Engineering, Inc., based in 
Wichita, American engineers are making vital contributions to the 
design work for the Airbus A380 aircraft. Furthermore, Airbus spent 40 
percent of Its global procurement budget last year in the United 
States--with American aerospace manufacturers--to provide key 
components for our full range of aircraft. This $5.6 billion 
expenditure (greater than Airbus procurement expenses in any other 
country in the world) is recognition of the fact that American 
companies are successfully competing and successfully producing 
valuable components of high quality and competitive costs.
    Your bill aims to help ensure that American aerospace companies 
continue to compete successfully, and we support that aim. There are 
several key provisions in this bill that we find compelling and 
positive for advancing the aerospace industry generally--and the 
industry in the U.S. particularly.

  <bullet> Your legislation recognizes that adequate investment in 
        education, training and research is crucial.

  <bullet> It focuses on some of the most vexing problems facing 
        commercial aviation today, putting needed resources into 
        reducing noise and emissions.

  <bullet> When the aviation industry fully recovers from the economic 
        downturn and the events surrounding 9/11, we will be back to 
        the old problem of congestion of the airspace. Again, your 
        legislation would attack this problem head on, by investing in 
        weather research and air traffic control systems.

    Without dramatic improvements in all these areas, commercial 
aviation will not be able to meet the demands of tomorrow's 
marketplace.
    Senator, we salute your efforts, and those of your colleagues, to 
maintain the competitiveness of the U.S. aerospace industry--one 
comprised largely of our business partners and one clearly integral to 
our own business success as well.
        Sincerely,
                                          T. Allan McArtor,
                                                           Chairman

    Senator Allen. I would advise my colleagues that the U.S. 
aviation industry is the largest contributor to the U.S. 
balance of trade and directly accounts for $343 billion to the 
U.S. economy and 4.2 million positions in our job market. These 
workers earn an average income that is 35 percent higher than 
the average income in this country. Continued reductions and 
stagnation in aeronautics funding would lead to a continued 
loss in highly-trained human resources to countries that are 
placing a greater emphasis on aeronautics.
    We must also consider the impact aeronautics research has 
on our military. Every military aircraft design the United 
States military currently flies incorporates advanced 
technologies that were developed at NASA research centers. 
Aeronautics research has made the United States the dominant 
air power in the world, with technologies years in advance of 
our closest pursuers. As a result of these advancements, U.S. 
troops are placed in far less harm and more precise in their 
strikes against enemy targets, and that is important, as well, 
so that there is not as much collateral damage with less 
precision in the aeronautics.
    In the future, our troops need to continue to have the most 
technologically advanced equipment and armaments for their 
safety when protecting our freedoms and our interests. Making 
the United States the clear leader in aeronautics research and 
development, in my view, is in the best interest of our 
military, it is in the best interest of our civilian airline 
industry, and means a great deal for quality jobs and also our 
balance of trade. The aviation industry affects the lives of 
almost every American, and I am hopeful that this hearing will 
highlight the importance--and I believe it will--of aeronautics 
research and facilitate positive changes to our aeronautics 
policies.
    So, Mr. Chairman, I thank you very much for your leadership 
and your insight in organizing this important hearing, and I 
look forward to the testimony of our esteemed witnesses.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you very much, Senator Allen.
    Senator Dodd, welcome to the Subcommittee. Delighted to 
have you here, your interest and your leadership on this topic.

            STATEMENT OF HON. CHRISTOPHER J. DODD, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Dodd. Well, thank you, Mr. Chairman. And I will ask 
unanimous consent my remarks be included in the record, but I 
suppose I could just testify by saying, ``Amen.''
    [Laughter.]
    Senator Dodd. As you both have----
    Senator Brownback. We will recognize that in this 
Committee.
    Senator Dodd. Yeah, go ahead.
    [Laughter.]
    Senator Dodd. It is terrific. Both of your statements 
really say it very, very well and very comprehensively.
    What brings me to the Committee is obviously the comments 
of our colleague from Virginia, who I am pleased once again to 
be co-authoring a proposal that he has outlined very thoroughly 
for you. We think it is worthy of the Committee's 
consideration, the full Senate's consideration.
    I was thinking as I was coming in and testifying before 
this Subcommittee, as both of you are aware, my father served 
in the Senate back in late 1950s, early 1960s, and one of the 
committees I used to love going to was a freestanding committee 
called the Committee on Space and Aeronautics. It was an 
individual committee.
    There was a time when we placed such a priority on this 
subject matter that there was a free, separate committee that 
dealt with these issues. And I am not here to suggest--I do not 
see the chairman of the full committee around, so do not tell 
him I said this, because there is an always an argument to be 
made that, given the importance of this--and Senator Allen has 
just laid out the economics, put aside some of the other very 
legitimate issues of national security--why we have full 
standing committees in certain areas which have a marginal 
impact on our economic and long-term security, and subject 
matters like this, putting aside the issue of appropriations 
and the like, just the priority we in the Congress give to this 
subject matter seem to have been higher in times past than it 
is today. And it is reflected, obviously, in what has happened 
over the last decade in budget allocations. But maybe we ought 
to think at some point about how we might revive again the 
notion and the Senate of the United States placing a greater 
emphasis on this subject matter.
    Competition is healthy. It absolutely is. We are all better 
off for it. But if you are going to compete, you have got to be 
in a position to do so. And we have declined in our capacity to 
compete effectively. We are all making note--I do in my 
statement--about December 17th, 1903, of course, the Wright 
Brothers' famous powered flight in Kitty Hawk.
    I recently was in Ireland and visited a site that I never 
knew existed before. It was the site where a couple of guys 
named Alcock and Brown, in 1919, flew a plane from 
Newfoundland, and it crash landed in Ireland. It was the first 
successful transatlantic flight. Obviously, Lindbergh's flight 
some years later is the one that has got all the attention. I 
had never heard of Alcock and Brown before. They flew that 
plane, imagine, 16 years, only 16 years, after the Wright 
Brothers' 12 seconds--flew a plane, an open-cockpit plane, the 
two of them, with twin engines. They were Rolls-Royce engines, 
I noted when I read the plaque.
    So early on, there has been competition from the European 
community and elsewhere, and that is not a bad thing. We 
welcome that. But we have maintained, as you both have pointed 
out, in the 20th century, really the dominant position in the 
world, particularly the area of commercial aircraft, of course, 
and in our defense structures, as well.
    We have been the world leader, and not just in terms of 
market share, but also of innovation. The great ideas, the most 
breakthrough technologies that occurred, occurred in the United 
States. There were obviously ones that occurred off our shores, 
as well, but the bulk of them occurred here.
    There has been a dramatic change in the U.S. aeronautics 
priority in the last ten years. In 1985, in commercial 
aircraft, we controlled about 73 percent of the world market. 
That has declined now to less than 50 percent of the world 
market in the past decade. I do not know that much needs to be 
said, I mean, just in what has happened. Now, there are a lot 
of reasons for it--a united Europe, they are beginning to work 
more closely together, various other reasons. But the fact of 
the matter is, we are declining. And if you look at the budgets 
during that same period of time, the research budgets out of 
NASA's Aeronautics Research and Development Program have fallen 
to about 50 percent of what they were. So you do not need to 
have to connect a lot of dots here to understand what has 
happened.
    Now, again, there are a lot of pressures, and very 
legitimate pressures, on scarce dollars, but you both have made 
the point that from an economic standpoint, from a national 
security standpoint, this is not an area where we ought to be 
losing market share.
    I think we all accept the notion that we are going to face 
a far more difficult time in competing when there are low-value 
products out there. Given wage rates in developing countries, 
it is awfully difficult for the United States to maintain a 
competitive position in those market areas. Why in the world we 
would ever, ever, ever allow our Nation to fall as far behind 
as we are doing so, in this particular area, would be 
unforgivable. The indictment, historically, will be pronounced 
and severe if we do, in my view.
    So we owe it to future generations--just as previous 
generations have bequeathed this generation a very strong and 
vibrant aerospace industry--we owe a common commitment to the 
future generations to be no less than what we have been left. 
In fact, the commission, which you have referenced to, I think 
said it very, very, well and even more concisely. And I quote 
them when they said, ``We stand dangerously close to 
squandering the advantage bequeathed to us by prior generations 
of aerospace leaders,'' end of quote. I think that is about as 
concise and to the point.
    Now, we have not lost it yet, but it is waning, and I think 
the warning signs are all there. And so it is going to be 
extremely important that we do everything we can to respond to 
it.
    In contrast--as, again, Senator Allen has made the case 
that maybe deserves repeating here--contrasts our disappointing 
trend line in this area. Two years ago the European commission 
unveiled a report entitled ``European Aeronautics, A Vision for 
2020,'' to show you how far they are thinking. We are talking 
about a five-year bill, Senator Allen and I are; and they are 
talking in generations. We are talking in increments of five 
years. Remember, there was a country not long ago that used to 
talk about five-year plans. And they have committed $93 billion 
by 2020, and outlined ambitious goals of attaining global 
leadership in aeronautics and creating a world-class air 
transport system for Europe and ultimately the entire 
industrialized world. That is their plan and vision. The U.S. 
is now in a position where it must catch up in an effort not to 
lose its economic and technological dominance over the 
international aeronautics market.
    It is important to point out, as well, that the declining 
investment in aviation R&D is causing real economic pain right 
now. And, again, both of you made this point, Senator Allen 
very directly when he cited the numbers and statistics. In my 
State of Connecticut, and across the Nation, highly-trained 
workers are being laid off, engineering jobs are being 
outsourced to other nations where labor costs are obviously 
lower. I find this to be an unacceptable threat to our Nation's 
long-term economic future and national security issues.
    That institutional memory, that synergy that occurs when 
you have people who have the experience and background that 
bring all of that wealth together, when we start losing that 
and start relying on others to provide it for us, it gets very, 
very dangerous, indeed.
    Again, the industries of civil aeronautics and civil 
aviation bring about $900 billion and 11 million jobs to our 
economy. Senator Allen has made this point. Again, it is an 
important piece of our economy that should be strengthened and 
continued. Just in the year 2000, roughly 9 percent of the 
total U.S. gross domestic product was directly related to this 
industry. And we are now finding ourselves in a very shaky 
position.
    So our bill has been laid out for you. You understand what 
it does. We know there are a lot of ideas you will be getting, 
Mr. Chairman. The good news is, you are going to do something 
about it. I am confident you will, confident the full Committee 
will. We are confident the Senate will. We introduced our bill, 
I think a little late probably, last year to kind of get the 
kind of attention. But we are in early this year. This is a 
great hearing to be having, here in the early weeks of 
February, to get us going.
    Lastly, I would just mention--and it is not the subject 
matter of the Subcommittee directly, but just the very notion 
of basic research, Mr. Chairman. The one area that we have been 
very good at in the last few years in basic research is in 
health, and I think the evidence is so overwhelming, what has 
happened in medical devices and products, there are miracle 
drugs that are appearing, because we in the public sector made 
a commitment to basic research. And you cannot rely on the 
private sector to pick up the slack on basic research. Applied 
research, they can do, but basic research, there are so many 
empty holes in basic research that just do not produce anything 
at all, and you would have a hard time explaining to 
shareholders and boards of directors if you invested hard-
earned money as often as you have to in basic research and to 
come up empty. But it is something we ought to be able to do 
more of, because it has been a critical component of our 
economic success in developing new technologies and being on 
the cutting edge, internationally.
    And so, as a general matter, I wish we could find some way 
to reignite the interest in basic research in this country. And 
this is, of course, one area where I think we can do something 
about it, but I would like to excite you imagination about 
looking at the basic research component that we used to play a 
far more critical role in, and I think that role contributed, 
in no small measure, to the success we enjoyed throughout the 
20th century. So I raise that just as a subject matter for your 
consideration in future conversations and debates.
    But I am delighted to be joining my colleague from Virginia 
as his cosponsor in this very exciting proposal, and we hope 
you will find it worthy of your consideration.
    [The prepared statement of Senator Dodd follows:]

            Prepared Statement of Hon. Christopher J. Dodd, 
                     U.S. Senator from Connecticut

    Chairman Brownback, Ranking Member Breaux, and Members of this 
Subcommittee, I appreciate the opportunity to make some brief remarks 
today regarding the importance of U.S. involvement in aerospace 
research.
    Aerospace and aviation are important assets for America and for my 
home state of Connecticut. In addition to its obvious national security 
benefits, the aeronautics industry makes a critical contribution to our 
nation's economic growth and standard of living. As all of you are 
aware, this year marks the 100th anniversary of Wilbur and Orville 
Wright's first successful powered flight. Since those humble 
beginnings, aviation technology in the United States has reached 
remarkable heights. In the 20th century, the U.S. became the world 
leader in the aerospace market. Some say that the age of American 
preeminence in this field is on the wane. They point to the fact that 
in 1985, the United States controlled more than 73 percent of the 
commercial aircraft industry--while today we control less than 50 
percent of the global market.
    Over the last decade, funding for the NASA's Aeronautics Research 
and Development program has fallen by approximately 50 percent. 
Recently the Presidential Commission on the Future of the Aerospace 
Industry confirmed these concerns by concluding that government 
policies and investments in long-term research have not kept pace with 
the changing world, and in order to do so, the Federal government must 
invest in aerospace research. I think the Commission said it well when 
it stated that ``We stand dangerously close to squandering the 
advantage bequeathed to us by prior generations of aerospace leaders.''
    In contrast to this disappointing trend in the United States, two 
years ago, the European Commission and aerospace industry executives 
unveiled a report entitled ``European Aeronautics: A Vision for 2020'' 
which commits more than $93 billion by 2020 and outlines ambitious 
goals of attaining global leadership in aeronautics and creating a 
world class air transport system for Europe and ultimately the entire 
industrialized world. The U.S. is now in a position where it must catch 
up in an effort not to lose its economic and technological dominance 
over the international aeronautics market.
    It is important to also point out that the declining investment in 
aviation R&D is causing real economic pain right now to American 
workers. Right now, in Connecticut and across America, highly trained 
workers are being laid off. Right now, engineering jobs are being 
outsourced to other countries where labor costs are lower. I find this 
to be an unacceptable threat to our nation's long term economic future.
    How do we turn this around? Obviously, we cannot order a company to 
keep people on a payroll, and we would be hard-pressed to try to 
redirect the flow of intellectual capital into and out of the country. 
As the Wright Brothers so vividly showed, our country has always had a 
competitive edge in the world economy: the ingenuity of our people. 
This ingenuity has been cultivated by two factors above all others: 
one, the quality and funding of education; two, by investments in 
research and development. Obviously education is within the 
jurisdiction of another committee, but R&D is in the control of this 
Committee and specifically this Subcommittee. It is critical that we 
invest in our research and development and technology sectors so that 
American workers will lead the world in developing and building the 
technologies of tomorrow. The importance of civil aviation to our 
economy cannot be underestimated. It generated more than 900 billion 
dollars and 11 million jobs for the U.S. economy in the year 2000, 
roughly 9 percent of the total U.S. gross domestic product. This is not 
a sector that we can afford to continue to ignore.
    Our colleague Senator Allen and I recently reintroduced legislation 
addressing this very issue. The Aeronautics Research & Development 
Revitalization Act of 2003, S. 309, establishes a broad-based agenda to 
reinvigorate America's aeronautics and aviation R&D enterprise and 
maintain America's competitive leadership in aviation.
    Our bill doubles NASA and FAA research and development funding by 
2008 to $1.15 billion and $550 million respectively. It sets new 
research goals for supersonic transport, rotorcraft, high-efficiency 
and other technologies that the private sector has identified as 
critical to future success in this industry. In addition, it 
establishes professional training and scholarship programs to cultivate 
the talent of tomorrow.
    I am pleased that you are holding this hearing, Mr. Chairman, 
because it is important that all of Congress, the Administration, and 
America know that these are the facts, and the affects of losing this 
leadership will be detrimental to this nation as a whole. I hope that 
members of this Committee will take a look at our bill in the coming 
weeks. Senator Allen and I believe that this legislation merits the 
support of our colleagues. I look forward to working with you and other 
of our colleagues in the future. Thank you.

    Senator Brownback. Thank you very much, Chris, and I 
appreciate your thoughts and your comments. And I would say 
amen to yours, as well, because I really think that is where we 
are in my State, where we have so many of these manufacturing 
jobs in the aviation sector. These are the highest-waged, 
highest-skilled manufacturing jobs in the world, and so it is 
obvious why others would want them, and it is also obvious why 
we should do everything we can to protect them.
    And I appreciate your last comment about basic research. We 
are going to hold some hearings with the head of NSF and other 
groups. And I have asked her about what is her real focus and 
interest, and she--we talk about nano-technology and a number 
areas, but she says, you know, really we need to put money into 
physics, mathematics, and she was really digging at that same 
point, as well, that there is a feeling like you are just not 
planting the seed corn that you need to in those areas.
    We have moved forward in a lot of nice areas very strongly, 
NIH's doubling of budget over the last five years, great 
investment producing great results, human genome project, 
beautiful technology, beautiful information. Almost weekly you 
are seeing something, we have found for the gene for this or 
for that. I wonder how many of those bad genes I have, but I 
have not asked yet, and I do not know if I want to know. But it 
is really going to help us a lot in the future. But I do not 
know that we have invested in the same sense in those basic 
physics, mathematics that we need to. So I appreciate your 
comments backing those up, as well.
    Senator Dodd. Thanks very much. Thank you both.
    Senator Brownback. Thank you very much for joining us.
    The first panel we will have up, Honorable Robert S. 
Walker, chairman, Wexler and Walker Public Policy Associates 
here in Washington, DC Bob Walker, as former Congressman Bob 
Walker, was chairman of the Science Committee in the House side 
a number of years, a long-time advocate or research and 
specific research agendas to be able to help and build the 
strength and might of the United States. And also Dr. Jeremiah 
Creedon, associate administrator, Office of Aerospace 
Technology of NASA here in Washington, DC.
    Gentlemen, thank you very much, both, for joining us. Your 
full statements will be put into the record if you want to 
summarize. It is your choice. We are delighted you are here.
    Mr. Walker, Congressman Walker, we are delighted to have 
you here.

         STATEMENT OF HON. ROBERT S. WALKER, CHAIRMAN, 
        COMMISSION ON THE FUTURE OF THE U.S. AEROSPACE 
           INDUSTRY, AND CHAIRMAN, WEXLER AND WALKER 
                    PUBLIC POLICY ASSOCIATES

    Mr. Walker. Thank you very much. Delighted to be with you 
today, Mr. Chairman. And I appreciate the opportunity to come 
before you to talk a little bit about the work that the 
Aerospace Commission has been doing over the last year to 18 
months.
    Obviously, we meet here under some tragic circumstances. We 
never would have anticipated when we were doing our work that 
we would lose the Columbia, but in our grief and as we struggle 
to comprehend that loss, the real issue here is how do we move 
on, and I think that what you will see and what the commission 
brought forward were some ideas for moving on.
    In our view, nations aspiring to global leadership in the 
21st century must be space faring. Freedom, mobility, quality 
of life, and the ability to do the difficult things that define 
leadership will be enhanced and discovered on the space 
frontier. For the vision and commitment that leadership 
requires, manned space flight is an imperative.
    I would like to briefly summarize where we are with the 
work of the Aerospace Commission for you and give you some 
thoughts that come out of that report.
    The Aerospace Commission was chartered by President Bush 
and by the Congress to study the future of the U.S. aerospace 
industry in the global economy and to make policy 
recommendations to ensure that the United States maintains its 
economic and technological leadership. The commission was 
comprised of 12 commissioners, six appointed by President and 
six appointed by the Congress. Our final report was issued to 
President Bush and the Congress on November 18th of 2002, but 
although we have completed our work, we hope that you will take 
our recommendations and findings into consideration as we face 
some of the hurdles ahead of us in the aerospace industry.
    I come before you today to address two of the key 
recommendations that are linked together--one, aerospace 
research and development, and the special significance of the 
space enterprise.
    When you ask a small child what excites them, what makes 
them want to learn, they usually answer ``dinosaurs and 
space.'' The concept of space exploration and reaching beyond 
the stars comes from our American birthright as explorers and 
adventurers. Children do not want to just send their mechanical 
toys into space; they want to go themselves, and they think 
about it in those kinds of terms.
    That American quest for knowledge brings with it the need 
for technological and engineering feats that make discovery 
possible. Basic science can produce more insights about our 
relationship to the universe for increasingly sophisticated 
astronomical missions. But the lack of sufficient and sustained 
public funding for research, development, tests, and evaluation 
infrastructure limits the Nation's ability to address critical 
national challenges and to foster breakthrough aerospace 
capabilities that could enable a new era of aerospace 
leadership in America.
    Chapter 9 of the Aerospace Commissions report discusses our 
recommendation that the Federal Government significantly 
increase its investment in basic aerospace research, which 
enhances U.S. national security, enables breakthrough 
capabilities, and fosters an efficient, secure, and safe 
aerospace transportation system. We also make it clear that the 
U.S. aerospace industry should take a leading role in applying 
research to product development. Here are the transformational 
issues that we identified.
    Propulsion and power. Development of more advanced 
propulsion systems will lead to faster transit times, improve 
operational flexibility, and reduce the impact of radiation for 
long-duration human exploration missions. Nuclear energy could 
produce high-temperature plasma that would potentially reduce 
the transit time for a manned mission to Mars from seven or 
eight months to about 12 weeks. The commission believes that 
once the time to explore many parts of the solar system has 
been reduced to reasonable durations, months instead of years, 
the political imperative to do those missions will follow. 
Increasing available power, both on orbit or beyond orbit, 
could expand opportunities in military, civilian, and 
commercial space applications.
    The second thing is breakthrough energy sources. In the 
21st century, new energy sources must be developed in order to 
achieve revolutionary new air and space capabilities. As 
President Bush recently outlined in his State of the Union 
Address, we are moving towards a hydrogen economy. Use of 
hydrogen fuel cells as auxiliary power in aircraft technology 
can be an important step in establishing a hydrogen economy 
that could free the U.S. from dependence on foreign sources of 
energy. Hydrogen fuel cells, of course, have always been an 
important part of our human space technology.
    Another area is nano-technology. Not only did microchip 
technology lead to computers and the Internet during the second 
half of the 20th century, but it also brought us to the 
beginning of an exciting scientific revolution we now know as 
nano-technology. Recent discoveries indicate that, at the nano 
scale, devices and systems have completely different 
electrical, mechanical, magnetic and optical properties from 
those of the same material in bulk form. This could lead to 
such an increase in material strength that it could really 
revolutionize aerospace vehicle structural design and 
performance. The benefits of research may not be realized for 
decades, but are critical to innovation and keeping the 
Nation's intellectual capital fresh and vibrant.
    The obstacle we face is to move forward with these 
advancements. We also, though, need to look at the underlying 
infrastructure. Testimony before the commission and the studies 
conducted by the Federal Government over the last decade have 
found that the Nation's research infrastructure is aging and 
unable to meet future needs. Transformational research and 
associated RDT&E infrastructure are the building blocks for 
developing breakthrough aerospace capabilities and are 
indispensable parts of the U.S. innovation process.
    But in order to achieve true technological progress, 
industry has a great role and some responsibility. The 
commission believes that the U.S. aerospace industry must take 
the leadership in transitioning research into products and 
services. The transition of government research to the 
aerospace sector has been slow. The industry must aggressively 
develop business strategies that can incorporate government-
funded research into application.
    I would also like to take a moment to address another 
subject that the commission report spoke to and which is under 
the jurisdiction of this Committee. The Columbia tragedy has 
presented new challenges and questions about the advisability 
of human space flight. I believe that there is no more 
important mission than to extend our reach beyond the known 
into the unknown. We do that by investing in basic research, 
but we also do it on the frontiers of space.
    Some may say that we can learn all we need to know by 
sending robots in our place. I would say that robots have their 
place, but it is not the same as ours.
    I contend that there are three main reasons for us to 
continue to press forward with human space flight. The manned 
space program challenges us, pushes the envelope of technology 
to achieve the breakthroughs only made possible by humans. To 
those who say that robots are cheaper, better, and faster than 
humans, I say humans bring curiosity and ingenuity. Robots 
merely see the expected. Their successes and discoveries are 
based upon past experiences. Humans, however, when we are 
confronted with the unexpected, can produce greater 
discoveries.
    We cannot allow out international competitors to surpass 
us. Japan, China, India, and France all see space as a 
strategic and economic frontier that should be aggressively 
pursued. China is poised to launch a moon mission in a few 
short years, and I believe their intentions are not just to fly 
to the moon, but to stay there and set up a permanent base.
    Whenever I consider why we travel in space, I have seen the 
hand of God beckoning us to the heavens. We stand in a moment 
in history when we can either respond to that call or retreat 
from it. I believe, for own generation and for those to follow, 
we must be willing to invest the resources and summon the 
courage to reach as far as we can into the universe.
    I thank you for the opportunity to make this address.
    [The prepared statement of Mr. Walker follows:]

 Prepared Statement of Hon. Robert S. Walker, Chairman, Commission on 
  the Future of the U.S. Aerospace Industry, and Chairman, Wexler and 
                    Walker Public Policy Associates

    We meet today under tragic circumstances. Words cannot describe the 
depths of our grief as we struggle to comprehend the loss we suffered 
on Saturday, February 1, 2003. Our prayers are with the families of the 
STS-107 crew as we pick up our hearts and move on.
    And move on we must. The answer to the question why do we take the 
risks must be answered with how we take the risk. Nations aspiring to 
global leadership in the 21st century must be space faring. Freedom, 
mobility, quality of life and the ability to do the difficult things 
that define leadership will be enhanced and discovered on the space 
frontier. For the vision and the commitment that leadership requires, 
manned space flight is an imperative.
    I would like to briefly summarize where we are with the work of the 
Aerospace Commission.
    The Aerospace Commission was chartered by President Bush and 
Congress to study the future of the U.S. Aerospace Industry in the 
global economy, and make policy recommendations to ensure that the 
United States maintain its economic and technological leadership. The 
Commission was comprised of 12 Commissioners--six appointed by 
President Bush and six appointed by Congress. We issued three interim 
reports and our final report contained nine key recommendations which 
outlined an aerospace vision for our nation and addressed the areas of 
air transportation, space, national security, government, global 
markets, business, workforce and research.
    The Commission's final report was issued to President Bush and 
Congress on November 18, 2002 but although we have completed our work, 
we hope you will take our recommendations and findings into 
consideration as we face another hurdle in aerospace history.
    I come before you today to address two of those key recommendations 
that are inextricably linked--aerospace research and development and 
the special significance of space.
    When you ask a small child what excites them, what makes them want 
to learn, they answer dinosaurs and space. The concept of space 
exploration and reaching beyond the stars comes from our American 
birthright as explorers and adventurers. Children do not dream of 
sending their mechanical toys into space, they want to go into space 
themselves. They want to experience space travel and respond to visits 
and interact with astronauts through NASA programs and such wonderful 
institutions like the Challenger Center.
    That American quest for knowledge brings with it the need for 
technological and engineering feats that make discovery possible. Basic 
science can produce more insights about our relationship to the 
universe through increasingly sophisticated astronomical missions.
    In 1908, Wilbur Wright stated, ``But it is not really necessary to 
look too far into the future; we see enough already to be certain that 
it will be magnificent. Only let us hurry up and open the roads.''
    Research and development are the roads that lead to revolutionary 
aerospace capabilities. In the past, aerospace led the technology 
revolution because of large public investment in research directed at 
national security imperatives and goals. Today, we do not have an 
integrated national aerospace consensus to guide policies and programs. 
This has resulted in unfocused government and industry investments 
spread over a range of research programs and aging infrastructure.
    The lack of sufficient, sustained public funding for research, 
development, tests, and evaluation infrastructure limits the nation's 
ability to address critical national challenges and to foster 
breakthrough aerospace capabilities that could enable a new era in 
aerospace leadership for America.
    Chapter 9 of the Aerospace Commission's report discusses our 
recommendation that the federal government significantly increase its 
investment in basic aerospace research, which enhances U.S. national 
security, enables breakthrough capabilities, and fosters an efficient, 
secure, and safe aerospace transportation system. We also make it clear 
that the U.S. aerospace industry should take a leading role in applying 
research to product development.

Transformational Issues
Propulsion and Power
    Development of more advanced propulsion systems will lead to faster 
transit times, improve operational flexibility and reduce the impact of 
radiation for long duration human exploration missions. Nuclear energy 
could produce a high-temperature plasma that would potentially reduce 
the transit time for a manned mission to Mars from seven or eight 
months to about twelve weeks. The Commission believes that once the 
time to explore many parts of the solar system has been reduced to 
reasonable durations--months instead of years--the political imperative 
to do so will follow. Increasing available power, both on orbit and 
beyond orbit, could expand opportunities in military, civil, and 
commercial space applications.

Breakthrough Energy Sources
    In the 21st century, new energy sources must be developed in order 
to achieve revolutionary new air and space capabilities. As President 
Bush recently outlined in his State of the Union address, we are moving 
towards a hydrogen economy. Use of hydrogen fuel cells in aircraft 
technology can be an important step in establishing a hydrogen economy 
that could free the U.S. from dependence on foreign sources of energy.

Nanotechnology
    Not only did microtechnology lead to computers and the Internet 
during the second half of the 20th century, but it also brought us to 
the beginning of an exciting scientific revolution we now know as 
Nanotechnology. Recent discoveries indicate that at the nano scale, 
devices and systems have completely different electrical, mechanical, 
magnetic and optical properties from those of the same material in bulk 
form. This could lead to such an increase in material strength that 
could revolutionize aerospace vehicle structural design and 
performance.
    The benefits of research may not be realized for decades but are 
critical to innovation and to keeping the nation's intellectual capital 
fresh and vibrant.
    The obstacle we face is to move forward with these advancements; we 
need to change the underlying infrastructure. Testimony before the 
Commission and studies conducted by the federal government over the 
last decade have found that the nation's research infrastructure is 
aging and unable to meet our future needs.
    Much of the U.S. RDT&E infrastructure is 40-50 years old. We need 
to identify and invest in a new infrastructure that supports U.S. 
government and aerospace industry needs so our infrastructure does not 
become a constraint on our country's technological advancement.
    Transformational research and the associated RDT&E infrastructure 
are the building blocks for developing breakthrough aerospace 
capabilities and are indispensable parts of the U.S. innovation 
process. But in order to achieve true technological prowess, industry 
has a great role and responsibility.
    The Commission believes that the U.S. aerospace industry must take 
the leadership in transitioning research into products and services. 
The transition of government research to the aerospace sector has been 
slow. The industry must aggressively develop business strategies that 
can incorporate government-funded research into application.
    I would like to take a moment to address another subject of the 
Commission report, which is under the jurisdiction of this 
Subcommittee. The Columbia tragedy has presented new challenges and 
questions about the advisability of human space flight. I believe there 
is no more important mission than to extend our reach beyond the known 
into the unknown. We do that by investing in basic research but we also 
do that on the frontiers of space.
    Some may say we can learn all we need to know by sending robots in 
our place. I would say that robots have their place, but it is not the 
same as ours. I contend that there are three main reasons for us to 
continue to press forward with human space flight:
    The manned space program challenges us--pushes the envelope of 
technology to achieve the breakthroughs only made possible by humans.
    To those who say that robots are cheaper, better, and faster than 
humans, I say humans bring curiosity and ingenuity. Robots merely see 
the expected--their success and discoveries are based on past 
experiences. Humans however, when we are confronted with the unexpected 
can produce greater discoveries.
    We cannot allow our international competitors to surpass us. Japan, 
China, India and France all see space as a strategic and economic 
frontier that should be aggressively pursued. China is poised to launch 
a moon mission in a few short years and I believe that their intentions 
are not to just fly to the moon, but to stay there and set up a 
permanent base.
    Whenever I have considered why we travel to space, I have seen the 
hand of God beckoning us into the heavens. We stand in a moment in 
history when we either respond to that call or retreat from it. I 
believe for our own generation and for those to follow, we must be 
willing to invest the resources and summon the courage to reach as far 
as we can into the universe.
    Again, thank you for the opportunity to appear before you today, 
and I look forward to your questions.

    Senator Brownback. Thank you very much, Congressman Walker, 
we appreciate that very thoughtful and stimulating and poetic 
statement.
    Dr. Creedon, delighted to have you here in the Committee. 
And do not pay attention here to the clock. I guess we will try 
to stymie that. Take whatever time you need to testify.

         STATEMENT OF DR. JEREMIAH CREEDON, ASSOCIATE 
        ADMINISTRATOR, OFFICE OF AEROSPACE TECHNOLOGY, 
         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Creedon. Okay, thank you, Mr. Chairman.
    I want to thank the members of the----
    Senator Brownback. We should get that microphone over to 
you, if you will. While we are tech and technology, we are not 
particularly high-tech here. Talk right into it.
    Dr. Creedon. Okay, thank you. I want to thank the Members 
of the Subcommittee for the opportunity to testify on aerospace 
research and development.
    Before I begin, however, I would like to express the 
overwhelming sense of loss felt by the people of NASA in the 
wake of the Columbia tragedy. We are determined to find the 
cause, fix the problem, and move on.
    Turning to the subject of today's hearing, I want to 
recognize the work of Chairman Walker and the Commission on the 
Future of the United States Aerospace Industry and congratulate 
them on their thorough analysis of the issues.
    The Commission was asked to identify actions that the 
United States could take to ensure the future health of the 
United States aerospace industry. Of the nine recommendations 
of the Commission, five have a very strong focus on research 
and technology. The Commission clearly stated that research and 
technology is the foundation for the future of the aerospace 
industry.
    Quoting directly from Chapter 9 of the report, and I quote, 
``Aerospace is a technology-driven industry. Long-term research 
and innovation are the fuel for technology. U.S. aerospace 
leadership is a direct result of our preeminence in research 
and innovation.''
    The Commission recommends investments in this country's 
future. NASA's programs are the type of investment that the 
commission recommends. We believe NASA's current and planned 
research and development efforts are in alignment with the 
thrust and intent of the Commission's findings and 
recommendations. In particular, we are dedicated to providing 
technologies for leadership in aviation and in space 
transportation, to working with the educational community in 
growing and sustaining a technical workforce in our Nation, and 
in conducting the research that is needed to fuel the 
innovations of the future.
    I have here a copy of our recently published strategic plan 
at NASA. This plan articulates NASA's mission, vision, and ten 
strategic goals. One of the goals is to enable a safer, more 
secure, efficient, and environmentally friendly air 
transportation system. We are investing in technologies to 
support the transformation of the National Airspace System, as 
is recommended in Chapter 2 of the commission's report. In 
fact, through reprioritization of activities within our budget, 
we propose to expand our investment in this area, and we are 
working closely in partnership with the FAA on this critical 
issue.
    As Chapter 2 of the Commission's report also notes, 
security is a key requirement of the future air space system. 
We certainly agree and have been working since September 11th 
to develop a responsive program that draws on and reflects 
NASA's unique strengths. We also propose to initiate an 
aviation security project that seeks to enable long-term, high-
leverage solutions to eliminate key vulnerabilities within the 
aviation system.
    Another one of our goals is to ensure the provision of 
space access, and improve it by increasing safety, reliability, 
and affordability. This goal is responsive to Chapter 3 of the 
Commission report.
    We have developed a new, integrated space transportation 
plan that addresses our space access needs. The plan fully 
funds the space station, sustains the space shuttle, 
aggressively pursues crew rescue and crew transfer 
capabilities, and also develops technologies for future launch 
systems. As recommended in the report, we are collaborating 
very closely with the Department of Defense on the National 
Aerospace Initiative, and we will have an integrated program 
with the DoD that will end up demonstrating key technologies in 
flight.
    In addition, we are continuing our long-term collaboration 
with the DoD in aeronautics. NASA has requested funding for 
Project Prometheus to develop nuclear power and propulsion for 
space exploration. This will significantly reduce travel time 
and increase the available power to support science instruments 
in space. This, again, is in alignment with the Commission 
recommendation.
    Many of our efforts address the specific recommendations on 
breakthrough aerospace capabilities that are noted in Chapter 9 
of the report. In fact, we have some level of investment in 
each of the areas addressed. We have efforts to reduce nitrous 
oxides by 70 percent and CO2 by 25 percent. Our investments in 
aviation safety will develop technologies that will contribute 
to a 50 percent reduction in the aviation fatal accident rate, 
and we plan follow-on projects that will take that reduction to 
an even greater extent. Our investments in small aircraft 
transportation will significantly contribute to opening up 
aviation to smaller communities and reduce door-to-door transit 
time.
    In the case of noise reduction, our budget request 
increases our investment over the next few years to ensure that 
the noise reduction technology is aggressively transferred.
    Finally, the commission is justifiably concerned about the 
time it takes to transition research and development into 
products. At NASA, we measure our success in technology by the 
extent to which our results are transferred and are applied. In 
recent years, we have transferred and seen the application of 
noise and emission reduction technologies, decision-support 
tools for air-traffic management, aviation safety technologies, 
and more.
    In summary, we congratulate the Commission on a thorough 
and insightful report. We believe that the research and 
technology efforts are the key to the future health of the U.S. 
aerospace industry. We believe the NASA mission goals and 
technology programs are in very close alignment with the 
commission's recommendations, and we are committed to 
technology innovation and transferring of our technology into 
applications that benefit the quality of life in this country.
    Thank you, Mr. Chairman, and I will be happy to answer your 
questions.
    [The prepared statement of Dr. Creedon follows:]

 Prepared Statement of Dr. Jeremiah Creedon, Associate Administrator, 
       Office of Aerospace Technology, National Aeronautics and 
                          Space Administration

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to speak about the recommendations 
found in the Final Report of the Commission on the Future of the United 
States Aerospace Industry. We appreciate the diligence and thoroughness 
of the Commissioners and the recommendations they have brought forward. 
We support the Commission's overall message that Aerospace will be at 
the core of America's leadership in the 21st century and that for this 
industry to remain healthy, the critical underpinnings of this nation's 
aerospace industry must be strong.
    To achieve their stated vision, the Commission makes several 
recommendations that have a strong focus on research and technology. 
NASA is an investment in this country's future of the type that the 
commission recommends. In particular we are dedicated to providing 
technologies for leadership in aviation and space transportation, 
working with the educational community in growing and sustaining a 
technical workforce in our nation, and conducting the research needed 
to fuel the innovations of the future.
NASA Strategic Plan is in alignment with the Commission's Report
    Under Administrator Sean O'Keefe's leadership, we have just 
released a new NASA Strategic Plan that is responsive to national needs 
and is very much in agreement with the thrust of the Commission's 
report. All members of Congress should have recently received a copy of 
this Strategic Plan. Our new Agency Mission Statement reads: ``To 
understand and protect our home planet, To explore the universe and 
search for life, To inspire the next generation of explorers . . . as 
only NASA can.''
    I want to paraphrase this Mission Statement slightly to point to 
the Strategic and Enabling goals that NASA developed to support each 
element, and from there, discuss the work we do in specific support of 
the Commission's recommendations in Chapters 2, 3, 8 and 9.
    To Understand and protect Our Home Planet . . .  leads to specific 
NASA goals for enabling a safer, more secure, more efficient and more 
environmentally friendly aviation system, and improving security and 
quality of life. As NASA works with the FAA and others to achieve these 
goals, we are in direct support of the Commission's report, especially 
the Chapter 2 recommendation to transform the U.S. air transportation 
system and the Chapter 9 recommendation to enable breakthrough 
aerospace capabilities.
    To Explore the Universe and search for life . . .  leads to 
specific NASA goals of assuring access to space, and developing 
revolutionary technologies that enable the agency's science missions of 
the future, which in turn, open new opportunities to science, 
exploration and commercial space endeavors. These efforts support the 
view in Chapter 3 of the Commission report.
    To Inspire the Next Generation of Explorers . . .  leads us to NASA 
goals for working with educators, K-12 students, and the university 
community, to ensure that the aerospace industry has access to a 
scientifically and technically trained workforce as recommended in 
Chapter 8 of the Commission report.
    As only NASA can . . . leads us to the unique basic research and 
technology development NASA performs to fulfill our Mission, 
particularly in areas that offer the potential for breakthroughs in 
critical aerospace capabilities such as propulsion and power, 
information technology, and nanotechnology as recommended in Chapter 9 
of the Commission report.
    Early last year NASA unveiled an Aeronautics Blueprint that 
outlined a new and revolutionary technology vision to address the 
aviation challenges we face in the 21st Century. The four critical 
areas for technological investment identified in the Blueprint and also 
included in the Commission's areas of emphasis are: a Digital Airspace, 
Revolutionary Vehicles, Aviation Safety and Security, and a State-of-
the-Art Educated Workforce. These Blueprint elements have been 
incorporated in NASA's 2003 Strategic Plan.

Specific NASA activities in alignment with the Commission's 
        Recommendations
    Through our Mission and goals, we have set the priorities that 
guide our investment of the taxpayers' money, and clearly inform our 
Enterprises, Centers, and most importantly, each of our employees, how 
they contribute with their particular talents and capabilities to meet 
the nation's critical needs. This hearing is a timely opportunity to 
highlight changes Administrator O'Keefe has made within NASA, as well 
as elements in the President's Fiscal Year 2004 budget that speak 
directly to the Commission's recommendations. Recent highlights 
include:

  <bullet> NASA has an Education initiative to turn the tide on 
        declined interest in science, technology, engineering, and 
        mathematics.

  <bullet> NASA has a new Integrated Space Transportation Plan to more 
        fully integrate its efforts in the International Space Station, 
        the Space Shuttle and the Space Launch Initiative to support 
        Science activities in space.

  <bullet> NASA developed (with industry, academia, the FAA, and DoD) 
        an Aeronautics Blueprint to define technologies that have the 
        potential to open a completely new era in aviation by providing 
        unprecedented air transportation safety and efficiency, a 
        transformed national defense, new markets and economic growth, 
        and enhanced quality of life.

    Overall NASA has aligned its programs to better represent and 
reflect national priorities and to better concentrate our efforts. What 
follows is a summary of some of our key activities.

AVIATION
    The Commission has called for, in Recommendation #2, an air 
transportation system that meets the needs of civil aviation, homeland 
security and national defense. The President's Fiscal Year 2004 Budget 
reprioritizes investments and increases funding for three new 
initiatives focused on National Airspace System Transition, Quiet 
Aircraft Technology, and Aviation Security.
    A critical element for the work in aviation is the need to set up 
an interagency organization to guide and coordinate efforts for a 
National Aviation System Transformation. FAA, NASA, and OSTP have 
coordinated a proposal for such an organization that would set goals 
and align missions across government to ensure that the United States 
can meet future system demands, and stay at the forefront of the global 
aviation industry.
    National Airspace System Transition: Prior to the attacks of 
September 11, 2001, the aviation system was showing unmistakable signs 
of gridlock. Most air travelers had experienced congested airports, 
flight delays, and unreliable service. Since deregulation of the 
airline industry in the United States in 1978, air travel has tripled 
while the air transportation support infrastructure has remained 
relatively unchanged. Only one large hub airport and seven new runways 
have been opened in the past decade, while the number of departures had 
grown nearly 30 percent from 7 million to 9 million per year.
    As a result of the impact of September 11th on the economy and air 
transport system, the current demand has been reduced but we believe 
that the capacity issues that we faced prior to the attacks will 
return. Specifically, the growth in delays in the years 2000 and 2001 
significantly outpaced the growth in air traffic. Our existing airspace 
management system clearly cannot accommodate projected growth. We need 
to continue the development of technology to solve the problem of 
limited capacity of the National Airspace System (NAS). We do not want 
to have a situation where the capacity of the system constrains 
national economic growth.
    Safety and security have taken on a whole new perspective since the 
terrorist attacks. NASA is committed to working with airlines, 
airports, and other Federal agencies to develop concepts and 
technologies, which will reduce the vulnerability of aircraft and the 
NAS to criminal and terrorist attacks.
    I am pleased to report that through reprioritization within the 
President's FY 2004 budget, there is increased funding to address these 
critical aviation issues and begin the development of technology to 
increase the efficiency and capacity of the National Airspace System 
(NAS).
    We will invest $27 million in FY 2004 for this initiative, which we 
call the National Airspace System Transition ($100 million over 5 
years). The major challenges are to accommodate the projected growth in 
air traffic while preserving and enhancing safety; providing all 
airspace system users more flexibility, efficiency and access in the 
use of airports, airspace and aircraft; enable new modes of operation 
that support the FAA commitment to ``Free Flight'' and the Operational 
Evolution Plan (OEP); and develop technology to enable transition to a 
next generation National Airspace System beyond the OEP horizon.
    The research within this program will be focused on developing a 
more flexible and efficient operational approach to air traffic 
management. For example, together with the FAA, NASA will investigate 
and solve the technical challenges of increasing runway capacity in 
inclement weather to eliminate the biggest source of delays--poor 
visibility. We will also develop totally new concepts that allow the 
system to scale with increasing traffic levels. We are developing 
sophisticated new modeling capabilities of the nation's air traffic 
system so we can test out our tools and concepts.
    As the Commission has pointed out, the transfer of technology--to 
ensure its application--is essential to realize its value. Through 
efforts such as an interagency program office we will strengthen ties 
between the member agencies, and work similarly with academia and 
industry to transition the research into technologies, products and 
services useful to the nation.
    Quiet Aircraft Technology: Noise is typically a primary objection 
that communities have to airport or runway expansions. Airports located 
in remote areas when they were built are now located in the midst of 
sprawling communities. They are subject to an increasing number of 
noise restrictions affecting airport and aircraft operations. Since 
1980, noise restrictions at airports grew worldwide from 250 to over 
800 airports with specific additional restrictions beyond normal 
regulations.
    The U.S. has spent more than $4 billion from the Aviation Trust 
Fund and Passenger Facility Charges over the last 20 years to mitigate 
airport noise (e.g., sound-insulating nearby homes, building protective 
barriers). Reducing the noise impact on communities is a key issue for 
21st Century aviation.
    To illustrate this challenge of reducing aircraft-generated noise, 
we have conducted analyses of aircraft noise at Chicago O'Hare 
International Airport. Using the baseline 1997 aviation fleet noise-
level contours, objectionable noise levels extend many miles from the 
airport and affect approximately 600,000 people in the surrounding 
community. A quieter fleet of aircraft with a 10-decibel reduction in 
noise will reduce that impact on all but approximately 55,000 people. 
NASA's research and technology development continues to be focused on 
how to eliminate noise as an issue--by confining any objectionable 
noise to within the airport boundaries.
    The President's FY 2004 budget has increased the funding to address 
this critical aviation issue. NASA's Quiet Aircraft Technology Program 
is the primary source of technology to achieving the noise goal and 
includes an increase of $15 million in FY 2004 (an increase of $100 
million over 5 years) for this work.
    NASA is developing technologies that can directly change the noise 
produced by jet engines. Through an understanding of the basic physics 
of noise production we are able to interfere with the way that sound is 
produced, creating quieter aircraft for future travelers. We have also 
determined that a large part of the objectionable noise comes from 
parts of the aircraft other than the engines when the aircraft are 
approaching the runway. NASA is developing concepts for landing gear 
and wing configurations to reduce this objectionable noise. Physics-
based tools for noise propagation allow us to test the benefits of new 
flight profiles to bring the aircraft noise closer to the airport while 
maintaining flight safety.
    In FY 2001, NASA was able to conduct full-scale demonstrations of 
noise reduction technologies that would result in a 5 decibels 
reduction in perceived noise. This technology has been transferred to 
industry and is already being offered on production aircraft and 
engines. Based on these results and the increased funding provided in 
the President's Budget for research, we will be able to work in 
partnership with the engine and aircraft manufacturers to bring 
additional noise reduction technology to new aircraft more quickly than 
had been otherwise planned. We are expecting to demonstrate an 
additional 5-decibel reduction in perceived noise by the end of FY2007, 
leading to a total of 10dB reduction in comparison to the 1997 state of 
the art. To better understand the significance of this accomplishment, 
we can refer back to the illustration of Chicago's O'Hare airport. With 
a 5-decibel reduction the area encompassed by the contour of 
objectionable noise was reduced by 40 percent, with a 10-decibel 
reduction, the effected area is reduced almost 70 percent.
    Aviation Security and Safety: Aviation has a long-standing 
tradition of being the safest among all modes of transportation. The 
rate of accidents and fatalities on a per-passenger-mile basis for 
commercial aviation is at least a factor of two lower than that 
achieved by any other mode of transportation. However, as aviation 
continues to grow, there are concerns that unless steps are taken to 
drastically reduce accident rates, increased flights will lead to more 
accidents. Any incident receives visibility, and some are deemed 
national tragedies. Each affects the public's faith and confidence in 
aviation as a whole. Thus in 1997 the National Civil Aviation Review 
Commission endorsed a goal to cut the fatal accident rate by 80 percent 
by 2007. Much progress has been made in NASA technology development for 
aviation safety. In particular we have seen the transition of advanced 
cockpit weather technology into operational practice--both forecast and 
real-time. In the area of security for aviation there is a lot of 
synergy with the technologies for safety.
    Since the terrorist attacks of September 11, 2001, safety and 
security have taken on a whole new perspective. NASA is committed to 
working with airlines, airports, and other Federal agencies to develop 
concepts and technologies that will reduce the vulnerability of 
aircraft and the national airspace system to criminal and terrorist 
attacks
    As part of the President's FY 2004 Budget request, NASA will begin 
a new effort in Aviation Security. We will invest $21 million in FY 
2004 for this initiative ($225 million over 5 years). Research in this 
program will focus on concepts and technologies that can protect 
aircraft and the airspace system from criminal and terrorist attacks 
while dramatically improving the efficiency of security. In the near-
term, NASA will develop and demonstrate decision support technologies 
for ground-based air traffic management systems that detect and assist 
in the management of threatening situations. Other areas include 
technologies to reconfigure the aircraft to fly safely in the event of 
damage, and flight controls technology that would prevent the aircraft 
from being purposefully crashed. While details of the program are in 
formulation, it is currently expected that the long-term research will 
address:

  <bullet> Protection of Aircraft & Airborne Systems from Electro-
        Magnetic Interference

  <bullet> Airspace Operations

  <bullet> Transfer of Fundamental Information Technology to Security 
        Applications

  <bullet> Transfer of Fundamental Sensor Technology to Security 
        Applications

    NASA has and will continue to work closely and partner with the 
Department of Defense (DoD), the Department of Transportation (DOT), 
the Federal Aviation Administration (FAA), the Department of Homeland 
Security, academia, and industry to ensure that the research that NASA 
pursues is deliberately and methodically integrated into useful and 
timely products and processes.

ACCESS TO SPACE
    The Commission has called for ensuring our nation's ability to 
explore and utilize space, in Recommendation #3, as well as in 
Recommendation #9, which calls for increasing federal investments in 
basic aerospace research with the goal of reducing the expense and time 
to reach space safely and reliably.
    NASA agrees with the need to ensure and improve access to space. In 
the President's Budget Amendment for Fiscal Year 2003, NASA has 
formulated the revised Integrated Space Transportation Plan (ISTP) to 
ensure that safe, affordable, capable, and reliable space 
transportation systems are provided to support NASA's missions. The 
Space Launch Initiative (SLI), which began in 2001 as a key component 
of the ISTP, will provide the necessary technology development, risk 
reduction, and systems analysis to enable future space access 
capabilities. Based on recent system analyses, the ISTP has been 
updated and SLI has been refocused. As a result, NASA has a more 
tightly integrated plan to support its science driven missions. We 
believe the revised ISTP is a good plan, but we are committed to re-
examining it if necessary in light of future investigation findings on 
the Columbia accident. The Space Launch Initiative budget is now 
focused on the highest agency space transportation priorities: 
investing in an Orbital Space Plane (OSP) for assured access to the ISS 
and the Next Generation Launch Technology (NGLT) Program that focuses 
on the most critical technology development activities, such as 
propulsion, vehicle health monitoring, and high temperature structures.
    The OSP Program will develop a human-crewed vehicle with multi-
purpose utility for the Agency. Initially serving as an ISS Crew Return 
Vehicle launched on an Expendable Launch Vehicle, the OSP will also 
provide crew transfer and limited cargo capability. The results of the 
OSP will enable a transition path to future space launch vehicle 
systems under development in NGLT.
    The NGLT Program will be NASA's research arm for access-to-space 
technologies. As in aeronautics, access to space will require 
interagency partnerships to meet common needs. NASA is in the beginning 
of a cooperative effort with the Department of Defense, through the 
National Aerospace Initiative (NAI), jointly working to build a 
technology roadmap for hypersonics research and access to space 
technologies. We will also work with the Air Force Space Command on 
analyses for alternatives, and towards developing requirements for the 
next-generation launcher.

In-Space Propulsion Research
    Consistent with the Recommendation #9 of the Commission, to reduce 
the transit time between two points in space by 50 percent, NASA 
supports the Aerospace Commission's recommendation that more research 
is needed in power and propulsion systems. These systems have the 
potential for enabling missions that are not currently feasible. High 
performance propulsion systems will allow spacecraft to explore regions 
of space currently out of our reach, carry significantly greater 
scientific payloads, and will significantly reduce the time required to 
travel to destinations within the Solar System. This technology is 
needed to undertake sophisticated science operations in the outer Solar 
System that support the search for life. Moreover, this technology can 
greatly increase the speed, robustness, and science return of future 
robotic missions, while also serving as a stepping-stone to potential 
future human exploration beyond Earth orbit.
    The NASA Research Centers successfully pioneered the basic research 
on ion propulsion that led to the first demonstration of this 
technology on Deep Space One in 1998. They also developed the pulsed 
plasma thrusters demonstrated on the Earth Observing One spacecraft in 
2001. The President's budget continues the development of the next 
generation of propulsion technologies. Our goals are to increase the 
operating power of electric thrusters, to extend thruster lifetime, and 
to develop analytical models for optimizing thruster performance. The 
President's budget request for NASA also includes funding for an 
augmented nuclear program--now called Project Prometheus--as one of the 
agency's top priorities. Project Prometheus enables robust and flexible 
missions to explore areas of our Solar System where solar power is not 
practical, and it opens the door to a new generation of space 
exploration missions. Project Prometheus will focus on two major areas 
of nuclear power and propulsion research and development: improved 
versions of traditional radioisotope systems and development of a 
fission reactor to provide the necessary electricity to power electric 
engines and more capable science instruments.
    The first demonstration of this capability is planned for the 
rovers of the Mars Science Lander, scheduled for launch in 2009. This 
new generation of radioisotope power systems will allow spacecraft, 
landers, and probes to operate 24 hours a day, seven days a week, with 
increased mobility and reconnaissance capabilities.
    NASA will also complete research and development of the first 
reactor-powered spacecraft and demonstrate safe and reliable operations 
on long-duration, deep space missions. The Jupiter Icy Moons Orbiter 
(JIMO) has been identified as the first space science mission to 
demonstrate this capability. Scheduled for launch in the next decade, 
this ambitious mission will orbit three of Jupiter's moons, Callisto, 
Ganymede, and Europa, to explore their makeup, history, and potential 
for sustaining life. This mission not only demonstrates a valuable new 
technology, it addresses a highest priority science objective from the 
National Academy of Sciences--going to Europa to confirm growing 
evidence that a global ocean is hiding beneath its icy surface. 
``Europa is likely to contain the three things necessary for life to 
evolve--liquid water, a source of heat, and organic material.'' \1\ 
This technology makes it possible to realistically consider missions 
that orbit multiple targets sequentially. Such a capability is 
tremendously advantageous, and it paves the way for an entirely new 
generation of space exploration missions.
---------------------------------------------------------------------------
    \1\ Press Release, July 11, 2002 Missions to Kuiper Belt Now, 
Europa Within the Decade are Key to Space Discoveries, National Academy 
of Sciences
---------------------------------------------------------------------------
A Vision of the Future
    Finally, to bring this together as a system, an approach we like at 
NASA, I would like to take you into the future to envision how these 
investments will help enable the aerospace system of the future.
    The impact of information technology cannot be overstated--from the 
tools that help engineers develop the highly complex air traffic 
management system of the future, to the design of the new vehicles that 
will fly in it. To achieve unprecedented safety, information 
technologies will be critical in transforming data into knowledge to 
give pilots precise situational awareness of weather conditions, other 
aircraft, and terrain, as well as knowledge of their aircraft through 
``intelligent'' and autonomous hardware and software systems that can 
adapt, self-improve, self-repair and self-reconfigure in response to 
component faults and failures. The application towards aviation 
security is equally powerful. It can detect aircraft that do not 
conform to normal operating patterns and determine whether there is 
malicious intent or help is needed. In either case, strategies would be 
in place to land the aircraft safely. Airports in the future are 
increasingly busy centers of commerce as businesses cluster there for 
the environment conducive for increased productivity, now free from the 
noise of aircraft operations and emissions, and the convenience of 
reliable and affordable service.
    Industry-sponsored research on the Space Station will have created 
a constellation of commercial space platforms, some inhabited, others 
autonomously operated, meeting the needs of industry research, 
development, and production for space-based products. The Next 
Generation Launch Technologies research will have paved the way for 
reliable and affordable airline-like service transporting cargo and 
passengers to and from orbit on a routine basis. These new vehicles 
will diagnose their own ``health'' status, scheduling maintenance, 
identifying anomalies that require attention, self-correct and repair 
minor faults, and track trends that could lead to anomalies. Nano- and 
information technologies will have made these capabilities possible.
    New space research vehicles will combine new propulsion and power 
technologies, high-strength low-mass structural materials, and sensors 
with dramatically increased sensitivity and low power consumption. 
High-speed transport to the outer planets and beyond, for science 
missions, will take weeks and months, not years and decades. Nano-
technology will have exploited physical phenomena at the nanometer 
scale, creating ``healing'' metals for spacecraft skin to repair damage 
such as micrometeorite hits on long duration missions. Scientific 
returns per mission will increase 100-fold as research equipment and 
payloads are more capable and comprise the majority of launch mass. 
NASA will be conducting missions that go beyond our solar system. 
Robots will work collaboratively with humans to maximize scientific 
returns. Research in automated reasoning will have enabled these 
robotic assistants to contend with uncertainty, making them 
significantly more mobile, and more scientifically capable. Space 
communications will allow scientists high-data rate access to space 
assets, wherever they are, retrieving their data from extreme 
environments, over interplanetary distances and long mission lifetimes.
    We also envision a vibrant educational system in the U.S.. Grade 
schools and high schools now have new teaching tools and curricula 
inspired by NASA's programs, and our efforts including the cadre of 
Teacher-Astronauts have inspired thousands of students to pursue 
scientific and technical careers. The universities with specialties in 
engineering and the sciences have full enrollment with growing 
programs, and their graduates will be finding exciting opportunities in 
both government research and the private sector job market.
    These are only snapshots of the possibilities. As the last century 
of advances made possible by investments in aerospace research has 
shown, we are hard-pressed to imagine what is truly possible in an 
environment that nurtures innovation.

    Senator Brownback. Thank you very much, Dr. Creedon, 
appreciate that.
    Let us run the clock at seven minutes and we can bounce 
back and forth here if we have a series of questions. But I 
want to ask a few here.
    Dr. Creedon, to start off, one of the things that really 
drew me to this hearing today was, in December I met with the 
leaders of the general aviation industry in Wichita. And, as 
you know, a number of companies are headquartered there, major 
manufacturing facilities, and the thing that really struck me 
was not that we are having a current downturn in the economic 
activity and the employment--as I noted, 11,000 lost jobs in my 
State alone, and these are--this is in Cessna, Raytheon, 
Bombardier-Learjet, Boeing, I mean, it is across the board, all 
of the companies. That is there, that is a problem. But what 
was really troubling me was, they said, as you look out in the 
future in developing the next wave of aeronautics, the next 
wave of planes, they are being approached by various countries 
and saying that, ``Okay, we will pay for the research on the 
development of a new wing, new engine, for general aviation, 
and we will help you develop that as a company. Now, if we do 
that, we want to build that product, then, in our country.'' So 
that they are saying, we have got a near-term problem, and we 
have a cyclical nature of business. We understand that. But we 
are really concerned about this industry moving offshore with 
the researching pulling it offshore to other places or other 
parts.
    One, are you familiar with that taking place? And if you 
would comment about what you feel like we should be doing as a 
country to stop it.
    Dr. Creedon. Thank you for the question, Senator. I would 
say two things. In NASA, we have had a series of three programs 
aimed at the general aviation industry. The first was an AGATE 
program that was aimed at developing some technologies that 
would improve the capabilities of general aviation vehicles, 
the kind of research of the nature that you were talking about. 
In addition to that, we had a program that would develop 
engines specifically suited for general aviation aircraft.
    Within the budget constraints that we have had, we have 
directed the research funds that we have in this area now 
towards a small aircraft transportation system, which is 
dedicated towards coming up with the ability to operate these 
aircraft and offload the hub-and-spoke system and provide 
greater access to smaller communities and more ability to be 
able to make point-to-point travel plans and not have to go 
through the hubs by using the general aviation aircraft.
    I think, as is evident in the Commission's report and the 
statements of everyone that has spoken today, that if you do 
not do the requisite research to provide the capability to 
compete, that in a competitive world you will soon not be able 
to compete.
    In our funds, we pride ourselves in NASA and came up with a 
responsible and credible program. And within the funds that we 
had available, we have dedicated them, at this time, to 
operation of the general aviation aircraft in the 
transportation system, and, therefore, we are not funding the 
kind of research that you talk about.
    Senator Brownback. Chairman Walker, I am sure this topic 
came up at the commission. What were the narrow recommendations 
that would most befit the industry to try to address this topic 
of some of this research and then manufacturing moving 
offshore?
    Mr. Walker. Yeah, we were very fortunate, though, on the 
commission to have able representation of the general aviation 
industry from Ed Bolen, who is going to testify here later on 
today. And a number of these topics did come up.
    I will tell you that the one thing that we found to be very 
true is that throughout the world there are countries 
aggressively looking to develop aircraft manufacturing 
capabilities. When we were in both Japan and China, we found 
there that they are really looking to move into building of 
regional jets. Why do they want to do that? Is there really a 
global market for regional jets? No. The Chinese could point to 
at least some domestic market. The Japanese could not even 
point to that. But they want the ability to do that kind of 
technological integration work, because they know that that 
will have reverberative effects out into the future and will 
allow them to be competitive not only in the aerospace area, 
but in lots of other areas. And so it is a great challenge to 
us.
    And so what you will see in a number of the recommendations 
of the commission is our attempts to deal with that kind of 
technological challenge and that kind of policy challenge.
    One of the reasons why we have to reform the export control 
policy of this country is because we have to do something that 
allows us to compete globally with our aerospace products. At 
the present time, what is happening is, as a result of our 
control policy, many of our companies are unable to market 
beyond our own shores. And the export control policy 
recommendation was aimed at assuring that as we develop good 
products here, they are marketable on a global scale. That 
assures not only that you keep the ability to manufacture, but 
also you keep the supplier base in this country that underpins 
that entire manufacturing capability. We will lose both 
manufacturing capabilities and we will lose supplier base if we 
do not do something about an export control policy that simply 
is not working at the present time.
    Senator Brownback. You know, I ran into that, particularly 
India, who is a strong ally of the United States, saying that, 
``We are getting all these dual-use requirements that is 
keeping product from us that we would like to get from the 
United States.'' And they are saying, ``And we are working with 
you. You know, what can we do to get those off ?'' And here is 
an economy that is growing and it is quite vibrant.
    Chairman Walker, have we lost the leadership in the 
aerospace industry, in your estimation?
    Mr. Walker. No, we have not lost it, but we are on a slope 
where we could lose it in the future if we do not take the 
steps necessary to compete. I mean, what we saw is, in the 
aeronautics area, particularly in commercial aviation, we are 
being heavily challenged from the Europeans, who, as Senator 
Dodd pointed out, have laid out their vision of where they are 
headed in that area in their 2020 report and some AIR 21 
reports and some subsequent reports since then. There is no 
doubt that they have an entire plan for challenging our 
supremacy.
    We are being challenged in space on the Pacific Rim. There 
is no doubt that the Chinese have an aggressive space program. 
They are willing to put substantial dollars into it. And if you 
do not believe that, all you have to do is talk to the Japanese 
and the Indians who believe thoroughly that Chinese have a 
substantial program in that area.
    So the challenges are real. The question is whether or not 
we are willing to step up to the plate, do the R&D necessary to 
do transformational products, and then move forward. And that 
is the question of the development of resources that is 
throughout the report. It is resources not only of government 
funding, but the ability for industries to attract more 
investment money, because we revised the business model that 
allows them to have more capital flow into those business, and, 
therefore, allows us to remain more competitive.
    Senator Brownback. When would you expect the Chinese to put 
an astronaut in space?
    Mr. Walker. This year. This year.
    Senator Brownback. And you do not have much question about 
that?
    Mr. Walker. No question that they will fly. It may be a 
``spam in the can'' kind of mission that they do, but the fact 
is that they will probably orbit someone this year.
    I think the real challenge comes--I believe--and this is 
strictly me speaking, it was not in the commission report--I 
believe that they plan to be on the moon within a decade and 
that they will announce that they are there to stay 
permanently.
    And I will tell you, as a little anecdotal information, I 
had a Japanese parliamentarian in my office the other day, and 
I related to him that that was my belief coming off this 
particular study that we had done, and he looked at me, and he 
said, ``No, you are wrong.'' And I was kind of surprised, 
because some of the information we had gathered about this we 
had gathered in Japan. And then he smiled and said, ``You are 
not wrong in your conclusion; you are wrong in your timing.'' 
He said they will be on the moon within three or four years.
    Now, I think that has huge implications for us as a country 
if they truly have an aggressive program of that type. But I 
believe it is that aggressive, and I certainly think that they 
will fly humans inside this year.
    Senator Brownback. Dr. Creedon, do you agree with that 
assessment?
    Dr. Creedon. I think that----
    Senator Brownback. Please speak into the mike there, if you 
would.
    Dr. Creedon.--Across the board, it is very, very 
competitive. I do not have the insight or the information that 
Chairman Walker has, but I have no reason to doubt the 
conclusions that he came to.
    Senator Brownback. Senator Allen?
    Senator Allen. I would love to follow up on some of these. 
Thank you both for your testimony.
    In the event that the Chinese do get on the moon, whether 
it is three years or five years, and want to stay there, what 
are the implications of that? What are they going to be doing 
by being on the moon that we cannot presently do? It is 
generally not considered a habitable planet. They may have a 
lot of people but do not value human life anywhere as much as 
we do.
    Mr. Walker. Well, for example----
    Senator Allen. But what would that--how would that affect 
us?
    Mr. Walker. Yeah. For example, in order to survive on the 
moon, you basically have to develop close-looped environmental 
systems.
    Senator Allen. Right.
    Mr. Walker. That could be a technology that would have a 
great deal of application here on earth and, you know, that the 
spinoffs of that could be very, very useful in a global 
marketplace. And so that is one thing I see.
    There are apparently vast supplies of H3 on the moon. H3 
allows you to have far more efficient fusion reactors. The 
ability to bring back H3 from the moon and utilize is inside 
fusion reactors may prove to be a huge benefit to the country 
that is there doing it.
    So, I mean, there are some things like that that you could 
imagine. I also think that there is a psychological impact that 
comes from it. I think the American people believe that we went 
to the moon, we planted our flag, it is our, and----
    [Laughter.]
    Mr. Walker.--you know, nobody else should be able to go 
there. And I think once it is realized that we not only have 
not gone back, but now someone else has gone there, and our 
ability to go there in the near term is dramatically limited, 
that we simply would not be able to stand up a program and get 
there quickly in competition with that, would have a huge 
impact in this country.
    And I believe there are people inside our security programs 
who believe that a Chinese capability to go to the moon has 
vast security implications for this country, as well.
    Senator Allen. Let me get a little bit closer to earth here 
and the focus of this hearing, which has to do with 
aeronautics. As far as that competition is concerned, and this 
is maybe a more pointed question than the chairman's. It is an 
international competition. And in aeronautics, is the United 
States winning, or are we losing?
    Mr. Walker. Well, I think at the present time, that your 
description earlier today of us living off of developments of 
the 1960s is pretty accurate, that--and we have done a pretty 
good job of that. I mean, we have advanced the state of the 
art, we have done new things as a result of our new computer 
technologies, we have been able to do some remarkable things 
building off of that platform. And in that sense, we continue 
to lead the world.
    There is nobody that builds better, for instance, military 
aircraft than we do. The rest of the world is well behind our 
capabilities in that arena. In the commercial aircraft area, we 
have not moved ahead as aggressively, in large part because the 
investment money has not been there to do it. And in that 
arena, there is no doubt that Airbus is extremely competitive 
with Boeing at the present time and that Boeing does feel the 
need to come with a new generation of aircraft that will be 
more competitive than they are now with Airbus.
    And the question is whether or not we have not only a 
research and development plan, but also a business plan that 
allows them to do that.
    Senator Allen. Dr. Creedon?
    Dr. Creedon. To use your analogy of winning and losing----
    Senator Allen. Or losing.
    Dr. Creedon. We were winning by a wide margin, and if we 
are still winning, it is by a much smaller margin. So the gap 
has closed, and I think Senator Dodd had some statistical 
examples of a closing of that gap in his statement.
    Senator Allen. Well, my view is, if you look at all the 
trends, particularly in the commercial aviation market, you 
look at the jobs, you look at the investment, you can put a 
bright face on it and say it is not the end of the game, that 
is true. But all the trends are negative. That is the reason 
for this hearing. And hopefully we will be able to work on a 
bipartisan basis, not just here, but also private sector and 
the government, to reverse it.
    You talk about losing manufacturers and suppliers and so 
forth. It is not as if you can find people just like this to be 
involved in aeronautics. We are losing--would you not both 
agree?--losing the aeronautics engineers. It is an aging 
workforce. Because there is less research, less investment in 
it, there are fewer students coming out of our universities in 
aeronautical engineering because there simply are not the jobs 
there. Would you agree with that, as well?
    Mr. Walker. Well, we speak to the workforce issues pretty 
broadly----
    Senator Allen. Right.
    Mr. Walker.--in the commission report. We felt very 
strongly that there needs to be an investment in education to 
produce a more technologically competent society out of which 
you can draw then----
    Senator Allen. Right.
    Mr. Walker.--more aerospace engineers. And there is no 
doubt that we need to do that in the future.
    I will say to you honestly that the record is mixed with 
regard to whether or not there are enough aerospace engineers 
available. The fact is, we are still graduating a significant 
number of aerospace engineers. The problem is, they are unable 
to find jobs in the industry----
    Senator Allen. Right.
    Mr. Walker.--and they move off into computer industry and 
other places.
    But the fact is, if we have made the industry healthy, we 
do have the ability to bring engineers into it, but they are 
not going to come for an industry where they think they are 
going to get laid off within a few months----
    Senator Allen. Yeah.
    Mr. Walker.--or where seniority rules guarantee that the 
last hired is the first gone, where the health of the industry 
is in question. I mean, those are all things that affect young 
people's decisions about where they are going to go, both with 
education and with----
    Senator Allen. Employment.
    Mr. Walker.--jobs. With employment, that is right.
    Senator Allen. You mentioned, Congressman Walker, the nano-
technology. That is something Senator Wyden, who is also a 
Member of this Committee, both of us worked on that, making 
sure--that is very basic broad science, everything from health 
to material of sciences in a variety of ways. We were able to 
get it through the Senate. Now we have got to get it through 
again this year. So we are working on that, as well.
    Dr. Creedon, let me ask you just specifically, insofar as 
the NASA budget, now I understand your role and your answer to 
our chairman's question, and you are a good, loyal leader and 
understand that funds are allocated to NASA. You make those 
priorities, and I understand that. I was governor; I wanted all 
my agency heads to say these are the approaches and also did 
respect the fact that the legislative branch also could have 
their own priorities in that area. The NASA budget, the way I 
see it, at least the way it is being presented, you have 
changed the way that you address your aeronautics budget. It is 
not just unique to aeronautics. You have done it across the 
board. That makes it harder for some of us to track what is 
actually going on. So could you tell me whether the research 
and development programs will receive more funding in the 
coming years, and can you tell me, and tell us, how much of the 
$559 million contained in the President's budget has been 
allocated for research, specifically?
    Dr. Creedon. Okay, there are several questions----
    Senator Allen. Right.
    Dr. Creedon.--in there.
    Senator Allen. Understood. And I understand your role and 
responsibility.
    Dr. Creedon. First of all, you had a question about the 
structure of the budget. And this year, as you correctly point 
out, we have structured our budget differently. We have five 
mission areas, and aeronautics is one of those mission areas, 
and so its budget is book-kept separately. I believe that that 
will make it easier this year and in the future to determine 
the amount of funds that are actually going into aeronautics 
research, because there will be a line item that can be looked 
at and will contain that amount of money. That has not been the 
case in the past. So this year, for the first time, there is 
that budget, and I think it will make it more readily apparent 
how much money is going into that research.
    Also this year, we are switching to a full-cost budget, so 
the numbers will jump around a little bit. But the $500 million 
that you are using is the way that we portrayed the budget in 
fiscal 2003. In 2004, it will be a different-looking number, 
but it is the same amount of work.
    As far as the budget, there has been a number of comments 
that have been made about the budget decreasing dramatically 
over the past decade. And it looks like, for the future, that 
the budget will continue to decline some 5 percent for the 
coming five years. But the NASA administrator testified this 
morning that he felt that there were things that had not yet 
been taken into account in that five year budget run-out, one 
of which is our working very, very, closely with the FAA and 
jointly working with them on transforming the National Airspace 
System to make the capacity of that system much greater and 
things such as that, and that, could contribute to a increase 
in the budget in the future years.
    Senator Allen. Well, the point is, comparing budgets, you 
foresee, in this budget, level funding; and, in the future, a 5 
percent decrease in research in----
    Dr. Creedon. I think it will----
    Senator Allen.--aeronautics.
    Dr. Creedon.--be easier to tell, because we have a separate 
budget and----
    Senator Allen. Understood.
    Dr. Creedon.--and the current projections. The current plan 
is for 5 percent decrease in the future, but this morning in 
testimony, the administrator said that there was a--the work 
that we were doing with the FAA could be taken into account and 
may yet result in a increase over that 5 percent decrease.
    Senator Allen. That is if you include--there is nothing 
wrong with including that specific program, but----
    Dr. Creedon. Except that the plans have not yet been 
finalized, I think, is why it is not in the budget at this 
time.
    Senator Allen. Well, you will understand why there will be 
some of us senators--myself, Senator Dodd, and hopefully 
others--who will be working to increase that.
    Dr. Creedon. I certainly do. And we certainly support the 
intent of the bill that you and Senator Dodd have introduced to 
point out the importance of investment in aeronautical research 
and the role that research and technology play in this whole 
area.
    Senator Allen. I am sorry, I have exceeded this. If I may--
on the SATS program for general aviation, I want to commend you 
in what you all are doing there, working with FAA, for small 
airports and for general aviation. I was there at the unveiling 
of it in Danville, and I think that that has a great deal of 
potential for not only general aviation; it is great for those 
communities to have access, much easier access. I even like the 
idea because I always like to look at what the price of fuel 
is. It even gives you information as to what the price of fuel 
is, and that does change from facility to facility, and it is, 
I think, an outstanding program that will really be beneficial 
to many smaller markets and rural areas.
    Dr. Creedon. Thank you.
    Senator Allen. So I want to commend you on that.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you.
    Mr. Walker. Mr. Chairman?
    Senator Brownback. Go ahead.
    Mr. Walker. Could I comment for just a moment on the 
interagency--
    Senator Brownback. Yes, please.
    Mr. Walker.--that Mr. Creedon was talking about, because I 
think that it is important to understand, coming off the 
commission report, that the interagency cooperation that he 
referenced with FAA is extremely important, we believe, for the 
long-term funding of a lot of these programs.
    And I would reference one other program. NASA is 
cooperating with DoD in the National Aerospace Initiative that 
DoD is bringing forward. That probably has more potential for 
huge breakthroughs in the aeronautical area than any other 
things that is being done. And the cooperative program between 
those two agencies in that arena could very well produce some 
of the breakthroughs and can assure that we have funding 
streams from a couple of different places that can move the 
program forward.
    Senator Brownback. Yeah, it seemed like to me when you were 
talking about our superiority in military aircraft, that taking 
some of that technology that is developed there and getting it 
out to our private side would really be helpful.
    Chairman Walker, you have been around government a good 
period of time. You have seen us lose market share to Airbus 
from, well, it was not probably five years ago, maybe seven, 
when we were at 73 percent; now Airbus is passing us up, or 
projected, for the first time, and that is in a down market. 
They are expanding in a difficult market.
    What are we going to have to do? Are we going to have to 
heavily subsidize the way Airbus is to get back into a stronger 
position? Are we going to have to do different business model 
plans or try to attract more investment dollars into the 
aircraft manufacturing business?
    Mr. Walker. We certainly have to do some things about 
changing the business model. And some of that probably does 
involve at least being competitive with them in the favorable 
financing plans that they offer to airlines and the nations 
around the world as they are doing it. I hope that we do not 
have to go to government subsidies to do that, but we certainly 
ought to have a financial plan that works that allows Boeing to 
be competitive in those areas.
    The other thing that we certainly found with Airbus is that 
they just--they have an aggressive plan moving forward. The 
question that you have to ask yourself, and it is a worthwhile 
question, is whether or not they have bet right. I mean, they 
are betting on the A380, which is a huge new airplane that is 
going to fly lots of passengers from hub to hub. The question 
is whether or not the travel in the future is going to be hub 
to hub or whether it is going to be point to point.
    And one of the ways in which we can compete in this country 
is by developing the point-to-point airplanes that allow us to 
have a generation of aircraft that would be competitive because 
of a very different kind of business model. And some of those 
will be very small airplanes. Some of those will be more 
general aviation-type airplanes than they will be even the 
regional jet capacities.
    But I can imagine the business people of the future, who 
will not fly hub to hub, who will want to get up in the town 
where they live and fly to the town where they are doing 
business and come right back, and do so in a time frame that 
fits inside their business pattern. That is a huge challenge 
for our airlines, because that means a lot of the people that 
have flown in the front of their cabin and paid the big fees 
may be transferred off into some other mode of transportation 
in the future. And so that has to be taken into account.
    But there is a changing business model that is already 
being observed. And insofar as we can get in front of that, we 
have a chance of being very competitive with the Europeans in 
the future.
    Senator Brownback. I cannot resist asking you this. Bob, do 
we go back to the moon? What is your sense? You chaired the 
commission, you have chaired the committee over on the House 
side, you have been involved in this business review policy-
setting for some period of time. Should the United States be 
going back to the moon?
    Mr. Walker. The conclusion I have come to is--what I want 
us to do is have the technologies that give us all kinds of 
options. I want us to be able to go to the moon. I want us to 
be able to go to Mars. I want us to be able to go to Europa. 
You know, I want a lot of options out there and that we can 
pick and choose among those options.
    And I believe that what NASA is attempting to do with 
Project Prometheus, in giving us the ability to fly much 
faster, allows you then to look at a variety of options for the 
future, both robotic and human options. And I think that there 
would be probably good reasons for people to design missions to 
the moon or to Mars or to Europa or to a lot of--to the 
asteroids, to a lot of other places. But what we have lacked up 
until now is the technological capabilities to explore those 
options realistically and in a time frame that Congress is 
willing to fund. And the new technologies will, in fact, permit 
us that kind of option, and it is where I think we should go in 
the near term.
    Senator Brownback. Anything else, Senator Allen?
    Senator Allen. Yes, one follow-up series here.
    What you are saying--I love your spirit, and that is what 
is great about you and why you are such a wonderful leader.
    In all of these areas that Dr. Creedon mentioned, you have 
to have priorities. We do not have unlimited resources. That is 
why I think when you talk about nano-technology, when you 
talk--which, again, it is the material sciences, it is a 
variety of things. The same with the hydrogen fuel cell 
capabilities. Those are the sort of things that are important 
for space, for aeronautics, important here on earth. Those you 
can easily, with a modicum of imagination, see the value in 
that, and that is what we have to sell. You all can help.
    I know where Europe is. Most people probably do not. It is 
not relevant to them. But there are questions. I mean, there 
are choices. Do you go to Pluto or you go to Europa, and you do 
it under $750 billion or whatever the limit--price tag may be, 
or do you go to Mars, and first, obviously, with robotics 
before you start putting people there. So these are the tough 
decisions.
    And what I like about this Subcommittee and this discussion 
is what can we do, and where do we need to go? Whether it is 
the research, whether it is development, whether it is 
education, all important, working with the private sectors. 
What are our business models here? What are our tax and 
regulatory policies as a country that may make us less 
competitive with the Europeans? Or Bombardier does a great job 
in Canada, and many of their planes that they make are fit in 
for those regional jets.
    Senator Brownback. And Wichita. They are in Wichita.
    [Laughter.]
    Senator Allen. All right, well--and Wichita. Bombardier--
they make great jet boats, too.
    But regardless, it is a heck of a good company. I visited 
it when they were in Canada, but I am glad they are Jayhawkers, 
as well. It is a Quebecois.
    The question, though, is, is this a sustained effort? And 
that absolutely essential. We need to educate the American 
public on the importance of it.
    The one area--and since everything is so positive here, 
generally speaking--the one thing I was looking at, NASA's 
budget and the use of nuclear as an engine may make great 
physics sense for all those reasons. After the Columbia 
disaster, people just are going to easily imagine some problem 
on a takeoff, such as what happened with the Challenger, or in 
the event that that was a nuclear-powered plane coming in--that 
the Columbia was nuclear powered--what would that have 
impacted? Would that have the impact--would have that had a 
pattern of debris that we saw? Would that be a pattern of 
radioactive waste? That is something, insofar as nuclear, it is 
something that people, I think, are going to have some concerns 
with. If you are able to address it here, you can. But that is 
just one that is just a gut reaction that I think would be--it 
is not just viscerally felt by me. But I think that as that 
goes forward, I think there will be a lot of people in this 
country saying, well, that was debris coming down, it was 
tragic, if that were nuclear powered, what would have been the 
impact of it? And that probably, whether you want to address it 
right now or in the future----
    Mr. Walker. Well, I am not a technologist, but I can simply 
tell you what we heard, in terms----
    Senator Allen. Right.
    Mr. Walker.--of some of those issues. First of all, I mean, 
you would not have an active nuclear reactor at launch. And 
what you would have is a reactor that would activated once you 
got on orbit. You would shield it very, very heavily so that 
any kind of tragedy and so on would not take any of the nuclear 
materials that were being launched into orbit out of 
containment.
    Senator Allen. You would have in such a container that it 
would be safe.
    Mr. Walker. Yeah, that is exactly right. I mean, and those 
things all seem to be well inside the box of technological 
feasibility at the present time. I do not think we feel as 
though we have to do much in the way of breakthrough. A lot of 
what we have learned in shielding of nuclear submarines, for 
example, give you a pretty good base of experience for doing 
some of those kinds of missions.
    So I think that we can address some of those things. Will 
there will still be people who have concerns about it? Sure.
    Senator Allen. Well, it is logical----
    Mr. Walker. Yeah, sure.
    Senator Allen.--because you have seen an explosion in the 
sky----
    Mr. Walker. Sure.
    Dr. Creedon. Exactly. I agree totally with the chairman's 
answer. People will be concerned, but Project Prometheus is 
intended to provide nuclear for one point in space to another, 
not in getting us from earth to space.
    Senator Allen. Nevertheless, you are carrying radioactive--
--
    Dr. Creedon. Right, but as the chairman said, it could be--
--
    Senator Brownback. Encased.
    Dr. Creedon.--until you get to the first point in space.
    Senator Brownback. Thank you both very much for joining us, 
Chairman Walker and Dr. Creedon. It was very good. Appreciate 
that.
    Our next panel will be Mr. Ed Bolen, president and chief 
executive officer of the General Aviation Manufacturers 
Association, Mr. Dennis Dietz, director of Manufacturing 
Research and Development, Boeing Commercial Airplanes out of 
Wichita, Kansas, and Dr. John Tomblin, interim executive 
director of The National Institute for Aviation Research at 
Wichita State University, where much of the aviation 
manufacturing business is headquartered in Wichita, and the 
university strives to serve them.
    Gentleman, thank you all very much for joining us. We will 
put your full written statements into the record. If you would 
like to summarize, it is your choice. We appreciate your being 
here.
    Mr. Bolen?

   STATEMENT OF EDWARD M. BOLEN, PRESIDENT AND CEO, GENERAL 
               AVIATION MANUFACTURERS ASSOCIATION

    Mr. Bolen. Well, thank you, Mr. Chairman. And I would like 
to begin my remarks kind of picking up where the last panel 
left off, and that is on the issue of coordination.
    I think one of the really exciting things about the 
commission on aerospace is that it was tasked at looking at the 
entire aerospace industry, not just the civil aviation part of 
it, not just the space part of it, not just the defense part of 
it. But one of the things that we had going for us is, we had 
people who were very familiar with each of those disciplines. 
And so when we talked about issues like technology or we talked 
about workforce or we talked about investment or we talked 
about requirements, you found over and over again that 
representatives from civil aviation would say, ``Well, here is 
what we need in a future communication navigation surveillance 
system.'' And the space people said the same thing. And the 
military people said the same thing. And we all talked about, 
``Well, NASA has got a program for this,'' or, ``The FAA has 
got a program for that,'' or, ``The military has already done 
this.'' And one of the things that became very clear to us 
right up front is that aerospace is critical to the future of 
the United States. And both you senators have talked eloquently 
about that today, and we agree emphatically.
    We also know that we are operating in very tight budgets 
today. And we know that, as a country, we cannot afford to have 
redundant or conflicting research programs. We cannot afford to 
waste technology. We have got to be coordinated as a group. And 
I think that one of the things that we have going for us by 
having both this Subcommittee and the Subcommittee on aviation 
both being part of a broad committee is that you have an 
opportunity to make sure that NASA and the FAA are coordinated. 
And I would hope that as we look at how well coordinated those 
two research organizations can be, that we can tie the military 
into that, too, so that we can make sure, as a country, we are 
not taking U.S. taxpayer dollars and having redundant programs 
or wasted programs.
    I also think that it is incumbent upon us, as an aerospace 
community, to look at what some of our needs are not just in 
terms of research, but also in terms of facilities and 
capabilities and to see how we, as a country, can use or not 
use the different facilities.
    One of the things that came to my attention late last week, 
for example, was that Eglin Air Force Base, in Florida, the Air 
Force has decided that it really does not need its climactic 
center there, which his a hanger at Eglin Air Force Base which 
has the ability to be made very hot or very, very cold, and it 
is used by civil aviation to go and test products and see how 
they will respond in extreme cold for prolonged periods of time 
or extreme heat. It is the only facility like it anywhere n the 
world. Well, the Air Force has decided the Air Force does not 
need it, so the Air Force is going to close it. That is going 
to work to the detriment of our civil aviation community, and 
we do not have anyone saying, ``Wait a minute, that is a 
national research asset. Federal taxpayers have paid for that. 
We need to preserve it.''
    So I think that, in a whole host of instances like that, 
there is a role to be played not just in adding new money, but 
in coordinating the research that is being done, coordinating 
the facilities we have to make sure that we are getting the 
most bang for the buck. And I think that the Commission on 
Aerospace felt very strongly on that.
    We want to make sure that aerospace decisions are not 
really made on an ad hoc basis by a patchwork of Federal 
agencies, that we have some type of organizing authority that 
looks at it. And I think that this Committee is particularly 
well situated to look at aerospace in its totality, and I would 
urge you to do so.
    The specific purpose of today's hearing is to look at the 
National Aeronautics and Space Administration's research 
requirements. And I think that it is very important that we 
stress ``aeronautics'' when we refer to NASA. Sometimes the 
aeronautics program gets overshadowed at NASA by the space 
program and we lose sight of the fact that the first ``A'' in 
NASA is ``aeronautics,'' and they do have as a goal, and they 
do have as a mission, and they do have as a core capability, 
aeronautics research. And I think that we need to make sure 
that that is understood by the public, understood by the 
legislature, and funded accordingly. It is a tremendous 
capability and one that we need to focus on intently.
    Now, as president of the General Aviation Manufacturers 
Association, my primary focus is really the health of the 
general aviation industry. But I also want to point out that 
research in aviation, research that benefits the entire 
aviation industry, does benefit general aviation, because 
general aviation is not a separate segment of the whole, it is 
part of the whole, an extricable part of the whole.
    And so what I wanted to do today was to talk a little bit 
about some of the programs that NASA is involved in that are 
not necessarily just for general aviation, but that I think 
would be particularly helpful, and I think is particularly 
helpful, for the entire aviation industry, and certainly 
general aviation can participate in that. And so I want to list 
a couple of specific things that I think are very much needed.
    I think, first of all, software certification is a critical 
issue for everyone involved in aviation. I think everyone in 
today's society recognizes the tremendous advances that are 
being made as a part of the computer world. And what we are 
seeing in aviation, including general aviation, is a transfer 
of those computational advances, working their way into the 
cockpit and improving the situational awareness of pilots, 
giving them better information about weather, where they are, 
helping us better understand where they are going.
    But one of the great hurdles on trying to get the computer 
advances into the aviation field is trying to get it certified, 
because if you get, you know, the latest kind of phone, well, 
they are great, but at times you drop the phone call, sometimes 
your computer crashes. And that is fine, but it is not good 
enough when you are in aviation. In aviation, we demand that 
you have reliability 99.999--go out seven nines--it is got to 
be that good.
    The problem that we have is, with software, it is very hard 
to prove that, it is very hard to understand that. And what we 
have found at the FAA is that it is really more of a subjective 
art than it is an objective science.
    So one of the things that we think would be very helpful at 
improving the aviation technology would be for NASA to look at 
a tool that would help us certify software--in other words, 
something that we could plug software into and understand it 
passes or it fails, in terms of accuracy, reliability, and 
integrity. And I think that would be one of the great benefits 
moving forward, because it would allow us to more quickly get 
the computational advances from the computer world into the 
aviation world, and that certainty in the process, I think, 
would spur technological investment. I think more people would 
be willing to invest in breakthroughs if they thought the path 
through certification was more objective and more certain.
    I think another area that would be very helpful is in the 
area of weather sensors. I think most of you know that weather 
today is understood, from the dew point and some other 
important aeronautical areas, as a result of either tethered 
balloons or sensors that are on commercial aircraft which fly 
at altitudes of 30,000, 35,000 feet. But one of the things that 
we are missing is, we do not have particularly good weather 
sensors in the area from 10,000 get to 29,000 feet, an area 
where general aviation airplanes often are. And we are very 
interested in NASA technologies that would take satellites and 
focus weather sensors in that range. We think that would help 
us in terms of understanding general aviation weather, but also 
weather patterns across the United States, not just for air 
transportation, but for weather patterns as a whole.
    We are very interested in air traffic modeling. NASA has a 
program right now. It is a VAMS program, which looks at air 
traffic modeling. We have got a particular concern on that, 
because it is kind of a broad model, and we would suggest that 
that program focus more on, kind of, known areas. For example, 
look at the New York airspace and focus on the New York 
airspace at modeling problems to that, known problems, rather 
than as a whole. But I think that that is an area where NASA 
can be particularly helpful for us as we try to move forward on 
having a more efficient air traffic system as we go forward.
    Vehicle systems program. This is something that NASA is 
developing. It is something that they are referring to as their 
``vehicle enabling technologies.'' I think that that is very, 
very important. And I also think that Dr. Creedon touched on 
NASA's transformation program, the program that they are 
working with the FAA to try to determine the beyond operational 
evolution plan of the FAA. Where do we go in the next 
generation of air traffic management? I think that is 
critically important.
    Supersonic flight is something that continues to be 
important to the general aviation community. And I think 
propulsion systems are particularly important. I think if you 
go and look at all of the real great breakthroughs that we have 
seen in aviation over the past hundred years, they are pretty 
closely aligned to tremendous breakthroughs in the propulsion 
area. When we went from radial engines to piston engines, and 
piston engines to turbine engines, we always saw tremendous new 
airplane models built around that technology, and we saw safety 
rates improve. And I think that investing in propulsion is 
extremely important.
    We have engines today which are very reliable, but I think 
that there is still room for improvement in terms of noise, and 
I think there is still room for improvement in terms of 
emissions. And NASA has got programs like the Quiet Aircraft 
Technology Program, or the Ultra Efficient Engine Program, 
which are exciting programs, but I would simply point out to 
the Committee that they are, in my opinion, inadequately 
funded.
    Today we are spending tens of million dollars per year on 
quiet-engine technology. We are spending hundreds of millions 
of dollars a year going around and soundproofing homes near 
busy airports. And to me, that is like going and buying a lot 
of mops instead of figuring out how to plug the leak.
    And I think we want to look at that as we go forward. I 
think that is important to everyone, because, as airplane 
technology becomes more and more environmentally friendly, I 
think we are going to see communities demand to have airports 
among their midst, instead of what you have now, which is, in 
some areas, some community opposition. So I think that that is 
important technology, going forward.
    We are encouraged by NASA's commitment to technology, the 
capabilities that they bring to it, and we are particularly 
excited about their focus on general aviation. They have a 
strong track record of investing in general aviation, 
understanding general aviation, and we hope they will continue 
that as we go forward.
    Thank you very much for giving me an opportunity to 
testify.
    [The prepared statement of Mr. Bolen follows:]

   Prepared Statement of Edward M. Bolen, President and CEO, General 
                   Aviation Manufacturers Association

Introduction
    Mr. Chairman and Members of the Subcommittee, my name is Edward M. 
Bolen and I am President and CEO of the General Aviation Manufacturers 
Association (GAMA). Recently, I have also had the privilege to serve as 
one of the presidential appointees to the Commission of the Future of 
the U.S. Aerospace Industry.
General Aviation
    As everyone on this Subcommittee knows, general aviation is 
technically defined as all aviation other than commercial airlines and 
military aviation. Our aircraft range from small, single-engine planes 
to mid-size turboprops to the larger turbofans capable of flying non-
stop from New York to Tokyo. These planes are used for business 
purposes and recreation, as well as everything from emergency medical 
evacuations to border patrols and fire fighting. General aviation 
aircraft are also used by individuals, companies, state governments, 
universities and other interests to quickly and efficiently reach the 
more than 5,000 small and rural communities in the United States that 
are not served by commercial airlines.
    General aviation is the backbone of our air transportation system 
and the primary training ground for the commercial airline industry. 
The U.S. general aviation fleet consists of over 214,000 aircraft that 
fly more than 29 million hours per year and carry more than 166 million 
passengers. According to a recent study by Global Insight, general 
aviation contributes more than $41 billion to our nation's GDP each 
year and generates over a half million jobs.
Commission on the Future of the U.S. Aerospace Industry
    Mr. Chairman, serving on the Commission on the Future of the U.S. 
Aerospace Industry was an honor and a tremendous educational 
experience. Unlike previous commissions, this one looked at the 
totality of the aerospace industry--not just one of its individual 
segments like civil aviation or space or military. As a result, the 
Commission was not limited to viewing the industry through the prism of 
a single federal agency like NASA, the FAA or the DoD. Instead, we had 
the opportunity to see how the Federal Government as a whole treated 
aerospace.
    What we found was that the United States did not have a unifying 
aerospace vision or a coordinated aerospace policy. Instead, our 
nation's aerospace programs, including research efforts, were the 
result of ad hoc decisions made by a patchwork of federal agencies.
    The Commission on the Future of the U.S. Aerospace Industry 
believes this situation needs to change if our nation is to continue to 
be the world leader in aerospace. We can no longer afford to have 
redundant federal research programs. We can no longer afford for one 
federal agency to keep taxpayer funded technology from another. We can 
no longer afford to have research programs that industry does not 
value. And, we can no longer afford to work on technologies that have 
no chance of being certified for use in the national airspace system.
    To remedy this situation, we need better coordination between 
Congressional Committees, government agencies and industry. There is 
some coordination today but it is generally fragmented and tactical. We 
need to be more strategic. We also need to start looking at federally 
funded facilities and capabilities as national assets rather than as 
proprietary assets of the civil aviation system or the space program or 
the military.
    Let me give you an example of what I am talking about.
    Recently, the Air Force announced that it would close its one-of-a-
kind Climatic-test Center at Eglin Air Force Base because it was no 
longer serving an Air Force function. The problem with that decision is 
that the Climatic Center, which is a technologically advanced hangar 
that can simulate harsh environmental conditions, is used by more than 
just the Air Force. Domestic manufacturers of civil aviation products 
use the facility to test their products in extreme heat or extreme cold 
so that they can determine the environmental operating envelope for 
their products and obtain FAA certification.
    The Climatic Center is an extremely valuable facility but one that 
would be too expensive for a single manufacturer to maintain. Its 
imminent closure represents the lost of an important national aerospace 
asset. The closure may be a good decision for the Air Force, but it is 
clearly not in the best interest of the U.S. aerospace industry and the 
U.S. taxpayer.
    Situations like the one at Eglin Air Force Base can only be 
remedied with better coordination and cooperation between the various 
parts of the Federal Government. I urge this Subcommittee to use its 
power to facilitate that coordination and cooperation.

National Aeronautics and Space Administration
    As everyone knows, one of our nation's foremost aerospace agencies 
is the National Aeronautics and Space Administration or NASA. I would 
like to focus the remainder of my remarks today on NASA's aeronautics 
research programs.
    Let me begin by saying that NASA's research is fundamental to 
achieving significant breakthroughs in aeronautics. That is partially 
because NASA has many unique core competencies, but also because its 
research horizon is long term, very high risk, and not the kind of 
research that could be justified by a commercial enterprise.
    NASA research is focused at the ``pre-competitive'' stage, well 
before commercial products are developed. In fact, experience has shown 
that a company may still need to invest hundreds of million of dollars 
to bring to the marketplace a technology NASA has designated as ready 
for commercialization.

NASA's Aeronautics Programs
    Today NASA is involved in a number of important research programs 
that have the potential to benefits the entire aviation industry, 
including general aviation. I would like to highlight some of these 
programs.

Propulsion
    Historically, propulsion has been a key aerospace technology. 
Dramatic advances in airplane capabilities are often the result of 
breakthroughs in engine technology, such as when went from heavy radial 
engines, to light weight piston engines, to turbojets and then to fuel-
efficient turbofans.
    Today, the environmental impact of aviation operations is a 
significant constraint on aviation growth because many communities are 
concerned about aircraft noise and emissions. These concerns prevent 
the expansion of airport infrastructures that could reduce or eliminate 
delays. They also force our Federal Government to spend hundreds of 
millions of dollars per year soundproofing individual homes around 
large airports. This kind of federal approach to noise mitigation is a 
little like responding to a water problem by buying mops rather than 
fixing the leak. As a country, we need to spend more on NASA Quiet 
Aircraft Technology and Ultra-Efficient Engine programs.
    The NASA Advanced Subsonic Technology (AST) Noise Reduction Program 
has resulted in technologies that are already being used on today's 
airplanes to lower noise at the source. This includes engine noise 
reduction from advanced inlet liners and exit nozzles and airplane 
noise reduction from advancements in aerodynamic wing design and 
reduced-weight composite materials. The Quiet Aircraft Technology (QAT) 
Program will build upon the AST research into the next decade in 
support of NASA's goal to significantly reducing the environmental 
impact of aircraft noise on the community. In 2002, NASA and FAA 
initiated a new memorandum of agreement (MOA) to coordinate research 
activities and increase funding in support of the QAT program to speed 
up the introduction of lower noise aircraft technologies. GAMA strongly 
supports the coordination of FAA's Research Engineering & Development 
Program for Environment and Energy and NASA's noise and emissions 
research programs to remove barriers to the growth of the aviation 
industry and accelerate environmental benefits to the community.

Vehicle Program
    NASA has envisioned expanding their Vehicles Program to develop 
technologies that will remove roadblocks to a vast range of aircraft, 
bring significant new capabilities and benefits to our air 
transportation system. But unless NASA is authorized to spend 
significantly more to develop these vehicle-enabling technologies, we 
will continue to lose our technology edge.

NAS Transformation
    While the FAA has done an admirable job of planning upgrades to the 
NAS for the next ten years, NASA should undertake the types of research 
that will meet the needs of our air transportation system beyond the 
FAA's planning horizon. Key to this process would be establishing a 
joint program office to coordinate the aviation-related research 
activities of NASA, FAA, DOT, DoD and other government agencies.

Air Traffic Management
    No where is the need for a coordinated national vision for 
aerospace more apparent than in the work NASA does in the air traffic 
control area. The Multi-Center Traffic Management Area is an example 
where common goals and objectives have resulted in excellent products 
that can be rapidly implemented by the FAA. But other areas, such as 
airspace modeling, the lack of coordination and a shared vision is 
quite apparent. We are especially concerned that the Virtual Airspace 
Modeling and Simulation Project, known as VAMS, will consume an 
inordinate amount of NASA's resources, and many of these resources seem 
to duplicate those within the FAA.
    Clearly, NASA has capabilities and facilities that FAA does not 
have, and it makes no sense to duplicate these capabilities and 
facilities within our government. In the area of air traffic control, 
NASA is essentially a longer-term research agency for the FAA. But 
FAA's horizon is, and should be much shorter-term than NASA's. So it is 
essential that NASA's role should include ``pushing the envelope'' in 
air traffic control technologies, often beyond what can been seen from 
today's perspectives. This role is often difficult for the FAA.
    Without a single, clear roadmap for aeronautics that cuts across 
all parts of our government, resources will be wasted and time lost.
    In addition to the current NASA programs, we believe there is 
additional NASA research which would be extremely beneficial to the 
aeronautics industry.

Software Certification
    One new area where NASA's expertise would be especially useful is 
development of software tools that could be used by the FAA and 
avionics manufacturers to test avionics and other computer software 
used in the NAS to ascertain that it meets appropriate certification 
levels of reliability and integrity. NASA research in this area should 
be greatly accelerated and closely coordinated with the FAA, which is 
the organization that determines the minimum performance standards.

Weather Sensors
    Another area where NASA research has great value is advanced 
weather sensors that can measure temperature and dew point from 
satellites at altitudes not typically traveled by airline aircraft. At 
lower altitudes, specially-equipped balloons are used to gather this 
data. And above 29,000 feet, many airline aircraft are equipped with 
sensors and automatic datalink of temperature, dew point and other 
data. But between approximately 10,000 to 29,000 feet, weather data is 
very sparse.
    It is not economically feasible to equip smaller general aviation 
aircraft that normally fly between 10,000 and 29,000 feet altitudes 
with sensors and data link, and balloons are not feasible at these 
altitudes. And although the weather forecast models employed by the 
National Weather Service have greatly improved, they are still impaired 
by the fact that measurements of temperature and dew point in the 
middle altitudes are sparse. Forecasts derived from these models would 
be greatly enhanced if more accurate, real-time temperature and dew 
point data was available. Nearly all of the weather products produced 
by the National Weather Service would be enhanced, including many for 
non-aviation purposes. But most importantly to GAMA, general aviation 
safety would be improved.

NASA's General Aviation Research
    As a representative of the general aviation industry, I would also 
like to take the opportunity today to mention some of the NASA programs 
which have been specifically focused on general aviation.
    The Advanced General Aviation Transport Experiment (AGATE) was a 
NASA cost sharing partnership with industry to recreate and speed-up 
the technological basis for revitalization of the U.S. general aviation 
industry. The goal of the program was to develop affordable new 
technology, as well as the industry standards and certification methods 
for airframe, cockpit and flight training systems for next generation, 
single pilot, 4-6 place, near all-weather light airplanes.
    AGATE focused attention on moving technology that had been 
available only to commercial air carriers into general aviation 
aircraft. NASA and industry worked closely with FAA to bring electronic 
display regulations into line with current technology. As a result of 
this government-industry partnership, many new technologies were either 
brought to the market, or they were commercialized much sooner than 
would have been the case without AGATE. For a detailed discussion of 
how effectively this research was commercialized, I have attached a 
copy of the ``AGATE Alliance Commercialization Impact Report''. * 
Perhaps the biggest lesson learned from AGATE was that NASA can be an 
effective research partner with industry.
---------------------------------------------------------------------------
    * The information referred to can be found on the Internet at:
http://www.gama.aero/dloads/
AGATEAllianceCommmercializationImpactReport.pdf.
---------------------------------------------------------------------------
    Another success was NASA's General Aviation Propulsion (GAP) 
program aimed at developing revolutionary new propulsion systems for 
general aviation. Historically, it is new engines that have brought 
about the greatest changes in aircraft design and performance. At the 
entry level of general aviation, some very exciting new engines are on 
the verge of reaching the market.
    NASA's GAP program is an excellent example of how NASA research 
brings technologies to the point where industry can later refine NASA 
breakthrough technologies and develop commercially-viable products.

Small Aircraft Transportation System
    NASA's Small Aircraft Transportation System (SATS) initiative is a 
program to demonstrate how the integration of many next-generation 
technologies can improve air access to small communities. This program 
envisions travel between remote communities and urban areas by 
utilizing a new generation of single-pilot light aircraft for personal 
and business transportation between the nation's 5,400 public use 
general aviation airports.
    Current NASA investments in aircraft technologies are enabling 
industry to bring affordable, safe, and easy-to-use technologies to the 
marketplace, including advanced flight controls, innovative avionics, 
crashworthy composite airframes, more efficient IFR flight training, 
and revolutionary engines.
    The SATS program is focusing on four key operating capabilities, 
which we fully support:

  <bullet> Safe, high-volume operations at airports without control 
        towers or terminal radar facilities;

  <bullet> Lower adverse weather landing minimums at minimally-equipped 
        landing facilities;

  <bullet> Integration of advanced general aviation aircraft into a 
        higher en route capacity air traffic control system, with 
        complex flows that can safely and efficiently accommodate a 
        wide range of aircraft with diverse performance 
        characteristics;

  <bullet> Improved single-pilot ability to function safely and 
        competently in complex airspace in the evolving National 
        Airspace System.

    It should go without saying that NASA's technical expertise is an 
essential element of the SATS initiative. Only NASA can cut across 
traditional technical boundaries and integrate research benefiting 
general aviation vehicles, air traffic control procedures, airspace 
design and safety. And more than any other government agency, NASA has 
already demonstrated an ability to implement an effective consortium of 
government and industry that can produce results. This ability is due 
in large part to various collaborative research structures that are 
uniquely at NASA's disposal.
    We believe that at the conclusion of the SATS program in FY05, many 
of these technologies will be mature enough to be handed-off to the FAA 
for final development and deployment, and we are working with the FAA 
to develop such a program. Technologies that result from the SATS 
program will greatly enhance the capacity of the National Airspace 
system.

Conclusion
    Mr. Chairman, NASA is a preeminent research agency with much to 
contribute to the future of the aerospace industry. The challenge for 
all of us as stakeholders, including this Subcommittee, will be to make 
sure NASA programs fit into a broad national aerospace plan and are of 
value to the industry.
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions you might have.

    Senator Brownback. Thank you very much, Mr. Bolen. 
Appreciate that and I will have some questions for you, as 
well.
    Mr. Dietz, welcome to you here. The floor is yours.

STATEMENT OF DENNIS DIETZ, DIRECTOR, MANUFACTURING RESEARCH AND 
                DEVELOPMENT, BOEING COMMERCIAL 
                  AIRPLANES, WICHITA DIVISION

    Mr. Dietz. Thank you, Mr. Chairman and Mr. Allen.
    I am Dennis Dietz. I am director of Manufacturing Research 
and Development for the Wichita Division of the Boeing Company, 
and I appreciate the opportunity to bring Boeing's perspective 
on this very, very important issue here today.
    Senator Brownback. Mr. Dietz, pull that microphone a little 
closer to you, if you will.
    Mr. Dietz. I also want to express our appreciation to you, 
Mr. Chairman, for taking the leadership to move this forward 
toward implementation. As in all activities, that is a key 
important part.
    Kansas certainly is a key center for military, commercial, 
and general aviation activities, and employs many thousands of 
people, including the 13,000 people at Boeing and their 
families who are very directly impacted by the influence of the 
activity we are talking about today.
    On behalf of the Boeing Company, I also want to acknowledge 
the tremendous effort by Chairman Walker and the members of the 
commission for the comprehensive report of great quality with 
great recommendations. After being here today, I can see his 
passion for this subject can only inspire such good output.
    I also commend the Committee's initiative as reflected in 
today's hearing, in going forward with the implementation 
process.
    I also commend Senator Allen and Senator Dodd for their 
strong support of aerospace technology, as reflected in the 
recently introduced legislation.
    For the remainder of the time, though, I would like to 
address really two fundamental issues that are interrelated 
that come out of the recommendations in that report. And first 
is, and it is one we have been talking about from the very 
beginning, is that the Federal Government should increase 
significantly its investment in basic aerospace research, which 
enhances our national security, enables breakthrough 
capabilities, and fosters an efficient, secure, and safe 
aerospace transportation system. This is a high priority for 
Boeing.
    Second, I want to address the commission's recommendation 
to effect the transformation of the U.S. air transportation 
system as a national priority. This must result in reducing 
door-to-door travel times for our citizens. Implementation of 
this recommendation is Boeing's highest aerospace research 
priority.
    Mr. Chairman, the Boeing Company strongly supports the 
conclusion of the Aerospace Commission that an aggressive 
initiative by the Federal Government to invest in aerospace 
leadership would benefit the United States. There are broad 
public benefits. Many of them have already been spoken to--
certainly Federal investment in our technology infrastructure, 
an advance of our test facilities, propulsion, fuel systems, 
fuel efficiency technologies, advanced materials and 
structures, safety and security-related technologies and 
environmentally friendly technologies that address noise, 
emissions, and cabin comfort, in the case of aircraft, and 
those technologies primarily related to subsonic and, in the 
longer term, perhaps supersonic flight.
    A key step in maturing and improving advanced aeronautical 
technology is through the use of demonstrators and prototype 
units, and it is one of the ways you get a very quick feedback 
process in the work you are doing, and we would like to propose 
that it would be another avenue by which to make the return on 
investment, on our research investment, happen at a much faster 
pace.
    Turning to a related key finding, and this is one I feel 
very strongly about, on the President's commission, is future 
industry productivity growth and gross domestic product that 
are directly related to an efficiently growing air 
transportation system. Aviation is highly dependent upon an 
airport and airspace infrastructure that does not meet future 
efficiency, capacity, and security requirements. When we talk 
about productivity, that is the way we bring this industry up 
to provide those jobs in the future that we have talked about. 
They are high-paying jobs, they are the kind of jobs that draw 
the interest of our students and our institutions, and upgrade 
the level of education in our institutions. And we believe that 
is really critical in terms of productivity for the future to 
create those jobs for the future, as well.
    We support the recommendation of the Aerospace Commission 
on a national program led by the Department of Transportation 
with multi-agency participation. The goal of this initiative 
would be to define and develop a new air traffic management 
system to meet our long-term aviation, security, safety, and 
efficiency and capacity needs. And, of course, we have 
addressed competitiveness in this business, which means, we 
have to make this business such that we satisfy customer 
demand.
    A national traffic management initiative should build upon 
current air traffic management and infrastructure initiatives, 
including the OEP. It should use a requirements-driven 
approach, and it should be highly integrated, using secure 
network-centric architecture to really enhance common 
situational awareness and ensure seamless global operations.
    While not focused on space today, fundamental technology 
challenges in space should continue to be supported, as that is 
an important part of the whole activity within NASA, as well.
    We believe that investment of public funds demands a return 
to the public, and I believe that I have outlined some of those 
in my submitted testimony, and that those benefits will go on 
into the future. As you rightly said in the very beginning, we 
are looking at a five-year plan, our competitor's looking at a 
twenty-year plan, and there are those in the world who look at 
hundred-year plans. We have really got to focus on a long-term 
stable investment, as well.
    Finally, I would like to suggest that Congress engage as a 
full partner in this activity to maintain the implementation 
activity. In a year in which we celebrate the 100th anniversary 
of our pioneers, the Wright Brothers first flight, as well as a 
year in which we have had the loss of the Shuttle Columbia 
astronauts, we can pay no greater tribute to our aviation 
pioneers than to move forward in this activity and make great 
strides for the future that our future pioneers might be 
supported, as well.
    Thank you, Mr. Chairman. I ask that my written testimony be 
included in the record, and I look forward to responding to 
questions.
    Senator Brownback. Without objection.
    [The prepared statement of Mr. Dietz follows:]

 Prepared Statement of Dennis Dietz, Director, Manufacturing Research 
     and Development, Boeing Commercial Airplanes, Wichita Division

    Thank you, Mr. Chairman and Members of the Committee. I am Dennis 
Dietz, Director of Research & Development for the Boeing Company's 
Wichita facility. I appreciate the opportunity to share Boeing's 
perspective on the importance of significantly increasing federal 
investment in basic aerospace research. I want to express my 
appreciation to you, Mr. Chairman, for your leadership on these issues. 
Kansas is center for military, commercial and private aviation. 
Thousands of employees and their families in Kansas, including Boeing's 
13,000 employees, are directly impacted by the challenges we will 
address today.
    On behalf of the Boeing Company, I also acknowledge the tremendous 
contribution of Chairman Walker and the members of the Commission on 
the Future of the United States Aerospace Industry. Their comprehensive 
report highlights the integral role aerospace plays in our economy, our 
security, our mobility and our values, and concludes that global 
leadership in aerospace is a national imperative for the 21st century. 
The challenge ahead of us is to work together to secure global 
aerospace leadership by implementing the Commission's recommendations. 
I commend the Committee's initiative, as reflected in today's hearing, 
to begin the important implementation process. I also commend Senator 
Allen and Senator Dodd for their strong support of aerospace technology 
and their recently introduced legislation in this area.
    For the remainder of my time, I will address two, interrelated 
recommendations of the Aerospace Commission. First, the Federal 
Government should significantly increase its investment in basic 
aerospace research, which enhances U.S. national security, enables 
breakthrough capabilities, and fosters an efficient, secure and safe 
aerospace transportation system. This is a very high priority for the 
Boeing Company. Second, I will address the Commission recommendation to 
effect the transformation of the U.S. air transportation system as a 
national priority. This must result in reducing door-to-door travel 
times of our citizens, and implementation of this recommendation is 
Boeing's highest aerospace research priority.
    Aerospace systems protect us from those who would do us harm, and 
connect us to our loved ones across the country and around the globe. 
The Aerospace Commission observed that the aerospace industry is a 
powerful force within the U.S. economy, contributing over 15 percent to 
our Gross Domestic Product, supporting over 15 million high quality 
American jobs, while generating the largest trade surplus of any 
manufacturing sector.
    There are a great many challenges affecting aerospace today. These 
include new national security threats around the globe, cyclical 
commercial aviation markets, the need for a more secure, efficient, 
environmentally-friendly and capable aviation system, and safer, lower 
cost and more reliable access to space--a challenge underscored by the 
recent Shuttle Columbia tragedy, to name but a few. Government and 
industry are both doing their best to deal with these issues and to 
respond to the needs of their stakeholders. Our nation needs to remain 
a leader in space, and investment is required to take our nation to a 
new level of safety, affordability and scientific research.
    In our free enterprise economy, there is a proper role for 
government in each of these challenges. The Commission correctly 
defined government's role as recognizing the importance of aerospace 
leadership, creating a supportive policy framework, and increasing 
federal investment.
    For national security, aviation system security, and civil space, 
the government investment role extends from funding enabling technology 
to procuring and operating systems. Let me note that The Boeing Company 
believes providing for the security of the air transportation system is 
a proper role of government, with resources coming from the general 
fund rather than the aviation trust fund.
    For commercial products, the government role is properly limited to 
its historical role of supporting break-through, pre-competitive, 
fundamental research that has a longer time horizon--generally more 
than three to five years--than industry can support before it is mature 
enough to be considered for transition to product development.
    Government, including NASA, the DoD, FAA and the new Department of 
Homeland Security, must continue to strengthen its partnerships so that 
the benefits of aeronautics and space technologies can be leveraged, 
transferred, and applied swiftly where they are needed to meet our 
economic and security needs.
    Mr. Chairman, the Boeing Company strongly supports the conclusion 
of the Aerospace Commission that an aggressive initiative by the 
Federal Government to invest in aerospace leadership would benefit the 
United States. There are broad public benefits to be derived from 
federal investment in advanced test facilities, propulsion, fuel 
systems, and fuel efficiency technologies, advanced materials, advanced 
structures, safety and security related technologies, environmentally 
friendly technologies related to noise, emissions and cabins, and 
technologies related to subsonic and, in the longer term, supersonic 
flight. I understand the pressures on the overall federal budget in 
this time of national crisis. Nonetheless, I am disappointed that the 
FY 2004 NASA request for the Aerospace Technology Enterprise in the 
NASA budget continues the trend of declining investment in real terms 
for the future of America's aerospace leadership.
    A key step in maturing and proving advanced aeronautical technology 
is to incorporate it into scaled, prototype flight demonstrators. 
Demonstrators are particularly valuable in that they provide a test bed 
to mature technologies that, in turn, maximize the potential for 
deploying technological advances to serve the nation's pressing 
aviation needs. High priority demonstrators, for example, are needed 
for technologies that greatly (1) improve overall performance 
efficiency and, thereby, reduce travel time and air transportation's 
impact on the environment: (2) enhance access and mobility to stimulate 
economic growth; and (3) improve our economic security by decreasing 
our dependency on fossil fuels through the development of alternative 
fuel systems such as hydrogen. By focusing on a range of technologies 
that can be applied to demonstrators, a more significant and timely 
return on investment is achieved.
    Turning to a related key finding of the President's Commission on 
the Future of the United States Aerospace Industry, productivity growth 
and our gross domestic product are directly related to an efficient and 
growing air transportation system. As I noted at the beginning, 
implementation of this finding is Boeing's highest priority for federal 
research investment.
    Aviation system delays are projected to increase, creating a severe 
drag on economic growth in coming years. U.S. aviation system delays in 
2000, as measured by the FAA, resulted in a $9.4 billion loss in U.S. 
economic activity.
    The decline in air travel and system delays following 9/11 is 
temporary. Forecasters agree that growth in demand for air 
transportation ultimately will return to much higher historic levels, 
and will outpace available and currently planned capacity.
    The U.S. economy will suffer without adequate government action to 
improve the air transportation system. Aviation is highly dependent on 
an airport and airspace infrastructure financed primarily by system 
users and controlled and regulated by the government. This 
infrastructure does not meet future efficiency, capacity, or security 
requirements.
    The Commission concluded that the FAA's Operational Evolution Plan 
(OEP) is a necessary starting point, but insufficient for enhancing the 
U.S. air transportation system and maintaining global aviation 
leadership. The one billion dollar annual investment in the OEP will 
not produce sufficient capacity to meet long-term demand, nor will it 
take full advantage of technologies that can enhance the security of 
the overall aviation system. According to a DRI-WEFA study, if all 
projects envisioned by the OEP were completed on schedule, airspace 
delays in 2012 would be greater than in 2000, and the economic cost of 
delays between 2000 and 2012 would be an estimated $157 billion.
    The Boeing Company strongly supports the recommendation of the 
Aerospace Commission for a national program office led by the 
Department of Transportation with multi-agency participation. The goal 
of this initiative is to define and develop a new air traffic 
management system to meet our long-term aviation security, safety, 
efficiency and capacity needs.
    A national air traffic management initiative should build upon 
current air traffic management and infrastructure initiatives, 
including the OEP, use a requirements driven systems approach, develop 
a highly integrated, secure ``network centric'' architecture to enhance 
common situational awareness for all valid system users, and ensure 
seamless global operations. New and clearly identified funding for this 
initiative is needed. In light of current economic crisis and declining 
aviation trust fund revenues, the initiative should leverage 
investments and capabilities from non-traditional sources such as NASA, 
DoD, TSA, and DOT.
    While I have not focused on space today, NASA aerospace research 
also contributes to safer, more reliable and lower cost access to 
space. President Bush told a mourning nation that our journey into 
space will continue despite the tragic events of February 1st. 
Fundamental technology challenges remain in the space flight arena, 
including lighter weight, lower cost airframes, propulsion, and health 
management systems. The FY 2004 NASA Aerospace budget proposals to 
address these needs should be supported, and necessarily will receive 
more emphasis when we better understand the causes of the catastrophic 
loss of Space Shuttle Columbia.
    Mr. Chairman, the investment of public funds demands public benefit 
in return. I will close by citing some of the public benefits of 
federal investment in aerospace research. They include improving the 
quality of life for our citizens by drastically reducing the level of 
noise due to aircraft operations; reducing the congestion of the air 
transportation system; reducing the rate at which fossil fuels are 
consumed and greenhouse gases and other harmful gases and particulates 
are added to the atmosphere by aircraft; allowing for more rapid, cost-
effective development of safer, lower cost, more efficient aerospace, 
automotive and energy producing products; enabling low-cost, safe, and 
low-emission propulsion systems; improving performance for operators, 
and in turn reducing costs to the flying public; reducing the aircraft 
accident rate by 50 percent over the next ten years; increasing the 
mobility of our population that, in turn, stimulates economic growth; 
and advancing flight, and with it, aerospace leadership.
    Finally, Mr. Chairman, I congratulate the Congress for its 
willingness to consider the recommendations of the Aerospace 
Commission. I respectfully suggest that the Congress engage as a full 
partner in their implementation. This partnership will require a long-
term view of the Nation's investment in aerospace technology and the 
return on that investment to the American taxpayer. Past investments 
have surely improved the lives of all Americans. In a year in which we 
celebrate the 100th Anniversary of Flight and mourn the loss of the 
Shuttle Columbia astronauts, we can pay no greater tribute to America's 
aerospace pioneers than by securing America's economic and physical 
security with another century of aerospace leadership.
    Thank you, Mr. Chairman. I look forward to responding to your 
questions and questions from other Members of the Committee.

    Senator Brownback. Thank you very much, and I look forward 
to our discussion.
    Next will be Dr. John Tomblin. He is the executive director 
of the National Institute for Aviation Research at Wichita 
State University.
    Dr. Tomblin, welcome.

STATEMENT OF JOHN TOMBLIN, Ph.D., EXECUTIVE DIRECTOR, NATIONAL 
   INSTITUTE FOR AVIATION RESEARCH, WICHITA STATE UNIVERSITY

    Dr. Tomblin. Thank you, Mr. Chairman.
    Senator Brownback. And you might tell Senator Allen not 
everybody in Kansas is a Jayhawker, right? There are 
Wheatshockers and Wildcats and a lot of other----
    Dr. Tomblin. That is correct.
    Senator Brownback.--a lot of other beasts, too.
    Senator Allen. That is understood.
    [Laughter.]
    Senator Allen. Not everyone in Virginia is a Cavalier.
    [Laughter.]
    Senator Brownback. Please.
    Dr. Tomblin. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Allen, I appreciate the opportunity 
to share my observations and vision on the future of the United 
States aerospace industry with you today. My comments this 
afternoon will focus on the role of academia in partnership 
with government and industry and how that effective 
collaboration can contribute to the future of the United States 
aerospace industry.
    The United States has been the world leader in aviation 
throughout the 20th century. Today, the aviation industry 
competes in a global economic environment that is far different 
from that in the past. New challenges to our leadership are 
arising from aircraft manufacturers in Europe, the Pacific Rim, 
and Brazil.
    To address this competition, the Nation's research and 
development base for aircraft design and manufacturing must be 
expanded with support from the Federal Government in 
partnership with industry. It is only through research and the 
application of new technology that the U.S. will maintain its 
leadership position in aviation in the 21st century.
    The mission of The National Institute of Aviation Research 
at Wichita State University is to conduct research, transfer 
technology, and enhance education for the purpose of advancing 
the Nation's aviation industries. Located in a cluster of 
aviation industries, which include Boeing, Bombardier-Learjet, 
Cessna, and Raytheon, the institute must be able to meet 
research, testing, and technology transfer needs of these 
industries as well as Federal agencies that support aviation 
and establish certification regulations for the industry.
    The institute has established thrust areas that are of 
primary importance to the aviation research. They include 
aerodynamics, aging aircraft, composite and advanced materials, 
crash worthiness, icing, manufacturing, structures, and virtual 
reality.
    Permit me to review only a few of those institute's success 
stories which involve forming a strong collaboration between 
industry, government, and academia.
    One of our most successful partnerships developed as a 
result of the NASA AGATE program. I chaired the Advanced 
Materials Working Group of AGATE from 1994 until the program 
ended in 2001. During this time, the partnership between 
academia, industry, and government helped establish 
certification methods for composite materials that 
revolutionized the way in which composite materials are 
certified and used on aircraft. Through the joint 
collaboration, we were able to reduce the time and costs 
required for certification of new composite materials. This 
model of composite material insertion into applications and 
products has recently been adopted in commercial, transport, 
and military airspace as well.
    In crash worthiness and safety, a 1995 survey revealed that 
the perceived lack of safety was the primary reason for the 
general public not wanting to travel in light airplanes. If 
general aviation is to grow significantly and become the 
alternative to the hub-and-spoke transportation system that the 
commission report envisions, perceived and real safety must 
improve.
    The general public has come to expect crash safety in their 
cars and will likely demand the same from light airplanes. 
Furthermore, crash safety at aviation velocities has been 
demonstrated in race cars and in full-scale small airplane and 
helicopter tests. The automobile industry has accepted the 
unlikelihood of a zero accident rate and designed crash 
worthiness into its cars. Consequently, thousands of lives are 
saved each year. By designing crash worthiness into airplanes, 
aviation can see similar results.
    The institute is currently working with the FAA, NASA, and 
the aerospace industry to develop and validate analytical tools 
necessary to incorporate crash worthiness features into 
aircraft during the concept phase of aircraft development.
    In conclusion, I know we all agree the future of the 
aerospace is critical to our national security, transportation 
mobility and freedom, economic well-being, and quality of life 
for all Americans. The commission's sense of urgency to address 
the needs of the aerospace industry should not be ignored.
    America's leadership in aerospace is becoming threatened. 
As many witnesses here have mentioned in the testimony today, a 
hundred years ago, Wilbur and Orville Wright flew the Wright 
Flyer and made aviation history for the United States. It would 
be historically appropriate if the world dominance of the 
United States aerospace industry could be assured for the next 
one-hundred years through new and dynamic Federal programs and 
policies, and stronger government, industry, and university 
interaction and cooperation.
    I appreciate the opportunity to testify with you today. My 
prepared statement is more thorough and provides additional 
details. I would be happy to answer any questions.
    [The prepared statement of Dr. Tomblin follows:]

Prepared Statement of John Tomblin, Ph.D., Executive Director, National 
       Institute for Aviation Research, Wichita State University

    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to share my observations and vision on the future of the 
United States Aerospace Industry with you today. My comments this 
afternoon will focus on the role of academia in partnership with 
government and industry and how that effective collaboration can propel 
the future of the United States Aerospace Industry.

Aviation and the Global Economy
    The United States has been the world leader in aviation throughout 
the 20th Century. America's aviation industry has designed and built 
commercial, general aviation, and military aircraft used around the 
world, with exports resulting in a net favorable trade balance. Today 
the aviation industry competes in a global economic environment that is 
far different from that of the past. New challenges to our leadership 
are arising from aircraft manufacturers in Europe, the Pacific Rim, and 
Brazil. For example, the commercial airplane industry must now compete 
against the European Union (13 countries). The balance of trade in the 
aviation industry has shrunk from $41 billion in 1998 to $26 billion in 
2001. Furthermore, new foreign government-supported research and test 
facilities, particularly in Europe, are attracting business from United 
States aircraft companies because of availability, quality of results, 
rapid response, and low costs.
    To address this competition, the nation's research and development 
base for aircraft design and manufacturing must be expanded with 
support from the Federal Government in partnership with industry. The 
need for federal support of new research and test facilities and 
equipment is as acute as it is for basic and applied research. It is 
only through research and the application of new technology in 
aerodynamics, materials and structures, and aviation safety that the 
U.S. will maintain its leadership position in aviation throughout the 
21st Century.
    According to the Milken Institute's report of July 1999, entitled 
America's High-Tech Economy, Wichita, Kansas ranks 19th in the nation 
among high-tech metropolitan areas because of the city's high 
concentration of aviation industry. Wichita is second in the nation 
among aircraft and parts metros on the same basis. Prior to September 
11, 2001, Boeing, Bombardier-Learjet, Cessna Aircraft, and Raytheon 
Aircraft provided more than 43,000 jobs and a $2.1 billion annual 
payroll to the Kansas economy. The public is returning to commercial 
aviation as the only viable choice for long-distance travel, and both 
commercial and general aviation are expected to recover from the recent 
economic downturn.
    While the four major aviation manufacturers dominate employment in 
south central Kansas, there are 1,800 smaller manufacturing shops in 
the 13-county region surrounding Wichita. In addition, economists 
estimate that there are 2.6 jobs outside aerospace for every direct job 
within aerospace.

Wichita State University and the National Institute for Aviation 
        Research
    Wichita State University (WSU) is located in the metropolitan 
setting of Wichita, Kansas and has partnered with local industry for 
the past 65 years. According to the National Science Foundation, WSU 
ranked seventh in the nation in aerospace research expenditures in 
2000. The National Institute for Aviation Research (NIAR) was 
established on campus in 1985 to help address the aviation industry's 
research needs and has become a model for federal-state-industry-
university partnerships.
    NIAR is designated as a Kansas Technology Enterprise Corporation 
(KTEC) Center of Excellence, and is a partner in two FAA centers, the 
Airworthiness Assurance Center of Excellence and the Center of 
Excellence for General Aviation Research. The Institute was the 
recipient of the 2001 FAA Excellence in Research Award for its 
continuing contributions to aviation research, and its ability to 
partner with industry, academia, and government. NIAR, through its ties 
with industry, other universities, KTEC, and federal agencies provides 
an ideal focus for federal and state support to accomplish mutual goals 
for world leadership in aviation.
    NIAR's mission is to conduct research, transfer technology, and 
enhance education for the purpose of advancing the nation's aviation 
industries. Located in a cluster of aviation industries, the Institute 
must be able to meet the research, testing, and technology transfer 
needs of these industries and the federal agencies that support 
aviation and establish certification regulations for the industry. With 
the assistance of an industry advisory board consisting of vice 
presidents of engineering of the local aviation manufacturers, NIAR has 
established thrust areas that are of primary importance to the 
industries, and plans to upgrade and expand its capabilities within 
these thrust areas. The thrust areas are as follows:

  <bullet> Aerodynamics
  <bullet> Aging Aircraft
  <bullet> Composites & Advanced Materials
  <bullet> Crashworthiness
  <bullet> Icing
  <bullet> Manufacturing
  <bullet> Structures
  <bullet> Virtual Reality

Partnerships With Industry and Government
    Permit me to review some of the Institute's previous success 
stories which involved forming a strong collaboration between academia, 
industry and government. One of the most successful partnerships 
developed as a result of NASA's focus on general aviation. The Advanced 
General Aviation Transport Experiment (AGATE) was a NASA cost-sharing 
partnership with industry to create the technological basis for 
revitalization of the general aviation industry in the United States. 
The goal of the program was to develop affordable new technology as 
well as the industry standards and certification methods for airframe, 
cockpit and flight training systems for next generation single pilot, 
4-6 place, near all-weather light airplanes. I was chairman of the 
advanced materials working group from 1994 until the program ended in 
2001.
    During this time, the partnership with academia, industry, the FAA, 
and NASA helped establish certification standards for composite 
materials that revolutionized the way in which they are certified and 
used on aircraft by creating a series of composite material databases. 
Through these shared databases, a manufacturer can select an approved 
composite material system to fabricate parts and perform a smaller 
subset of testing for a specific application. Through the joint 
collaboration of two government agencies, the FAA and NASA, we were 
able to reduce the time required for certification of new composite 
materials by a factor of four and the cost of certification by a factor 
of ten. This model of composite material incorporation in applications 
and products has recently been adopted in the commercial transport and 
military aerospace industry as well.
    Typically, each company desiring to use a composite material in a 
product design must conduct a qualification process for the material in 
order to verify its properties and characteristics. Even for identical 
material systems, each company usually selects a different 
``customized'' qualification process leading to a very detailed and 
expensive procedure for each company. This cost increases further as 
other procedures must be established for structural testing, 
manufacturing control and repair procedures.
    Thus, most programs are limited to using materials previously 
qualified for other programs which leads to using older, out-dated 
material and not taking advantage of the latest technology and material 
advances in the industry. A solution to this problem, as witnessed by 
the AGATE program is to establish a national localized center for 
composite material validation and quality assurance.
    It is also worthwhile to note the paradigm shift that occurred as 
part of the AGATE program. Typically, one would think it better to 
spend federal research and development funding on larger commercial or 
military programs to advance the state-of-the-art. However, from 
collaboration with industry, government and academia, the AGATE program 
was able to achieve a paradigm shift by spending fewer research dollars 
in the general aviation market and applying the technology to large 
commercial transport and military programs. This is the case of small 
aircraft technology ``spinning up'' into large, complex aircraft 
designs and providing more cost-effective ways to achieve advanced 
performance as well as reduced costs. The application and transfer of 
these advanced technologies are easier and faster in the general 
aviation and business jet community than in the large transport and 
military community.
    Currently, Raytheon Aircraft Company is applying these advanced 
composite technologies on a new line of business jets, one of which is 
already certified and being produced. Cessna Aircraft Company, even in 
the present economic hardship of the aerospace world, announced at the 
National Business Aircraft Association meeting in September that it 
would be producing three new business jets. Using new technologies in 
applications that improve product performance and safety is essential 
in the 21st century's global market.
    Another important research area in the aerospace industry is 
aircraft crashworthiness. In a 1995 aircraft market survey, analysts 
determined that safety is the primary concern among of general aviation 
aircraft pilots and passengers. For pilots, the level of safety offered 
by the aircraft was said to be the primary decision factor when 
purchasing a light airplane. For potential pilots (the ``latent 
market'' for airplanes and flight services), a lack of safety was the 
primary reason for not piloting light airplanes. And for potential 
passengers, a perceived lack of safety was the primary reason for not 
wanting to travel in light airplanes. The respondents of this survey 
were not given a definition of the term safety; they were allowed to 
use their own definition in formulating their response. Even though 
there were nearly as many concepts defining safety as there were people 
surveyed, safety can be broadly categorized into two areas. The first 
is control and minimization of factors that cause accidents, or 
accident prevention. The second is control and minimization of the 
factors that cause injury once an accident occurs, or injury 
mitigation. Designing for crashworthiness addresses this second 
category of safety.
    Customer concern over the safety of general aviation aircraft is 
warranted, to some extent. Although declining, the accident rate of 
general aviation aircraft remains relatively high and the average 
number of general aviation accident-related fatalities remains 
significantly higher than other forms of air transportation. If general 
aviation or air transportation is to grow significantly and become the 
alternative to the hub and spoke air transportation system that the 
Commission report envisions, perceived and real safety must improve. 
The latent market (people interested in general aviation but not 
currently using it) will not participate without a stronger perception 
of safety. The general public has come to expect crash safety in their 
cars, and will likely demand the same from light airplanes.
    Furthermore, crash safety at aviation velocities has been 
demonstrated in racecars and in full-scale small airplane and 
helicopter tests. While many of the improvements in overall safety 
should come from accident prevention through such areas as enhancements 
in the airspace infrastructure, flight systems, training, etc., the 
automotive experience has shown that privately owned and operated 
vehicles will continue to crash. A zero accident rate is not likely. 
The automotive industry has accepted this reality and designed 
crashworthiness into its cars; consequently, thousands of lives are 
saved each year. By designing crashworthiness into light airplanes, 
general aviation can see similar results. NIAR is currently working 
with the FAA, NASA and the aerospace industry to develop and validate 
the analytical tools necessary to incorporate crashworthiness features 
into aircraft during the concept phase of development.
    One of the most successful crashworthiness stories occurred just 
three months ago in Texas where a pilot in a Cirrus Design SR22 lost 
control of his aircraft mid-flight due to an aileron failure. 
Typically, this would have resulted in a fatality but instead resulted 
in an uninjured pilot who was able to walk away from the crash. Using a 
ballistic recovery parachute, which is a relatively new technology for 
small aircraft and was developed in a partnership with the FAA and the 
NASA-SBIR program, the pilot was able to safely deploy the parachute 
over an unpopulated area and turn an otherwise fatal event into an 
unfortunate accident.
    In-flight icing also has a significant impact on the safety, 
operation, development and certification of helicopters and fixed-wing 
aircraft. In addition, icing hampers the operation of Unmanned Aerial 
Vehicles used for commercial and military applications. Recent 
accidents, such as the American Eagle ATR-72 in Roselawn, Indiana, in 
October 1994, and the Delta Connection (Comair) Embraer 120, near Ida, 
Michigan, in January 1997, which resulted in 97 fatalities, show that 
icing continues to be a serious safety concern. In fact since 1986, 
more than 300 fatalities have been attributed to icing-related airline 
accidents. Furthermore, the costs associated with aircraft design, 
testing and certification for icing are very high, especially for 
general aviation aircraft manufacturers. These costs are typically in 
the range of $5 to $10 million for a business jet aircraft. Research is 
needed to enhance aircraft safety and to reduce aircraft icing design 
and certification costs.
    Wichita State University is currently one of the leading 
universities in the U.S. in aircraft icing research and continues to 
collaborate with government and industry to enhance aircraft safety and 
utility and to provide industry with the tools needed for reducing 
aircraft development and certification costs. During the last 20 years, 
researchers at WSU have been conducted more than 18 collaborative icing 
research programs involving NASA, FAA and the aviation industry. A 
number of these research efforts were in direct response to the 1997 
NASA Aviation Safety Program, of which the goal is to reduce the 
aviation fatal accident rate by a factor of 10 by the year 2022. 
Collaborative icing research programs have resulted in a number of 
products ranging from aircraft ice protection systems, databases for 
aircraft design and certification, aircraft test methodologies, 
simulation tools for aircraft design, and pilot training aids.
    As noted in the Commission report, human factors research must be a 
continued consideration. The Institute is presently focused on 
investigating ways to improve maintenance documentation available to 
personnel. Maintenance errors have been identified as a major 
contributing cause in approximately 12 percent of major aircraft 
accidents. The perception was that maintenance manuals are laden with 
errors. However, results from a study funded by the FAA Airworthiness 
Assurance Center of Excellence (AACE) showed that airline companies 
adequately provide valid and appropriate content. The problem lies in 
the cumbersome way in which the material is presented. Manuals should 
be prepared in a more ``user-friendly'' format, allowing ease in 
finding the relevant technical documentation and improved sequencing of 
information for complex maintenance procedures. Technical writers must 
be familiar with how aviation maintenance is performed in order to 
effectively describe complex procedures.
    One of the unexpected outcomes the human factors research program 
was the development of an education program to offer an Associate of 
Arts degree specializing in aviation technical writing. This new 
program at Wichita State University is designed to provide students 
with special aviation training so they can better understand how to 
effectively communicate maintenance instruction in the manuals. The 
program was created through a joint effort of WSU, the Wichita Area 
Chamber of Commerce and the Wichita Area Technical College (WATC). 
Local aviation manufacturers including Cessna, Raytheon and Bombardier, 
supported the program through research and program development that 
designed the curriculum and coursework.
    In another collaborative effort, the Institute and Boeing 
Commercial Airplanes--Wichita Division are currently in the process of 
completing research on the effects of manufacturing defects on 
composite nacelle structure. This program was successful in reducing 
the cost of repairs and improving the first pass yield. It has also 
provided a substantial database for assessing damage that occurs in the 
fleet.
    A relatively new quality assurance inspection technology has been 
investigated in the research and appears attractive for in-process 
manufacturing inspection. Further research aimed at facilitizing the 
technique for use in aircraft production may result in a small business 
opportunity for producing associated equipment.
    Another important area that requires serious investigation is the 
current aging aircraft problem. Economic and market conditions of 
present-day airline companies are requiring the use of commercial and 
military airplanes far beyond their original design life expectancies. 
The general aviation fleet consists of more than 215,000 aircraft, of 
which more than 25,000 are over 50 years of age and are still flying 
and being resold. This aging airplane concern is being amplified as 
more airline companies use aged aircraft and rely on standard 
inspection practices for a guarantee of airworthiness assurance. NIAR 
recently opened a new laboratory that will focus on the integrity and 
aging aspects of small airplanes in commuter service. With funding 
through the FAA Airworthiness Assurance Center of Excellence and in 
partnership with several original equipment manufacturers and airline 
companies, this new laboratory will explore aging concerns in the 
commuter aircraft fleet and establish guidance to ensure that current 
maintenance programs of small general aviation airplanes are providing 
acceptable levels of continued airworthiness.
Commission Report on the Future of the Aeropsace Industry
    In conclusion, I know we all agree that the future of aerospace is 
critical to national security, transportation mobility and freedom, 
economic well-being and quality of life for the American people. The 
Commission's sense of urgency to address the needs of the aerospace 
industry cannot be ignored. America's leadership in aerospace is 
becoming threatened.
    On December 17th, 1903, the brothers Wilbur and Orville Wright flew 
their Wright Flyer from level ground under engine power alone and made 
aviation history for the United States. It would be historically 
appropriate if the world dominance of the United States Aerospace 
Industry could be assured for the next 100 years through new and 
dynamic federal programs and policies.
    I would like to thank you for the opportunity to testify today. I 
would be happy to answer any questions you might have.

    Senator Brownback. Thank you, Dr. Tomblin.
    Let me ask both you and Mr. Dietz at the outset here. Let 
us run the clock for ten minutes. Are we doing today what we 
need to on making the research to marketplace connections that 
we have in the past in the aviation industry? You mentioned 
that you worked the materials working group up until--I cannot 
remember the date you said it ended, but are we doing today 
what we need to to make those transitions from the research to 
the marketplace?
    Dr. Tomblin. It is funny you ask that question, because 
what we did in the AGATE program was kind a paradigm shift to 
what usually is done. If you look at commercial, military, and 
general aviation, and you want to apply technology, most people 
would say start at military, then to go commercial, and then go 
to general aviation, that it works down. But what we found, 
that it was more effective to work from essentially--saying 
general aviation is the bottom--going from the bottom up, 
because I can get a new technology implemented faster on 
general aviation models that turn over year after year after 
year, rather than commercial transports that have very few 
models. And military aircraft have greater models, but, 
unfortunately, some of that technology does not transfer into 
Federal policy and regulation, so it cannot be used cost 
effectively like the general aviation industry, because then 
they have to go redo some of the research to actually get it 
into Federal policy and regulation.
    Senator Brownback. So do you feel like we are doing what we 
need to in the match between Federal research and getting this 
to the marketplace today, or is it--I mean, this is a model 
program that you are talking about, and that one has worked 
well. Are we doing that enough? Are we doing it across the 
board sufficiently?
    Dr. Tomblin. I think we can do more by--I think Mr. Bolen 
mentioned it--as some of the certification methods. Currently, 
when I go to a general aviation manufacturer and we have a new 
technology that we want to implement, they have to consider 
cost, risk, and certification time. And that new model, they 
have customers, 300 airplanes already sold, and unfortunately, 
the new technology has to earn its way onto the aircraft. So 
that is unfortunate, because a lot of times that technology 
gets old and it is not implemented, because----
    Senator Brownback. What do you mean ``it has got to earn 
its way onto the aircraft''?
    Dr. Tomblin. By cost and risk reduction and certification 
time.
    So if I was going to implement, let us just say, my 
expertise, a composite material technology, like we did in the 
Raytheon Premier 1. We had various parts of that aircraft that 
we could have put it on, and only one part made it because of 
the new application and the technology. They would not bet the 
whole aircraft technology on that specific technology.
    Senator Brownback. Mr. Dietz, same question. Are we doing 
the partnership right that we need between the government and 
the private sector to get this research utilized as rapidly and 
as well as possible?
    Mr. Dietz. I am in the transition business, so I understand 
that word, and that is a very, very important word in our 
business. The problem, as both the gentlemen have alluded to is 
the timing and the fact that it does have to make itself pay, 
from a financial standpoint. And it goes back to the basic 
research. The basic research has to be out in front of the 
applied research and the actual transition on to the product.
    Senator Brownback. Well, let me put it a little 
differently. Were we much better in the past at getting the 
information and the help and the research, or were we just much 
bigger investment from the government in this basic research to 
be able to use it in the private sector in the past then we are 
now?
    Mr. Dietz. I think there are two answers to the question. I 
think one answer to the question is, yes, there was, I think, 
in some cases in the past, a more steady and predictable 
research activity that was out in front. The other thing I 
think needs to be recognized, we are talking very significant 
material properties from the materials/processes historically 
used in building airplanes. We are now working with materials 
and matrixes of those materials that are whole new materials 
systems. They create all new challenges for the structures they 
are used in. And, therefore, the ability to create the basic 
research that is substantial enough to transition to a product 
is a greater jump than it has been historically because of 
significant changes.
    It goes back again to changing that productivity model. We 
cannot just make incremental improvements to the same old 
process, and it is time we have to make step-function 
improvements, and that is driving some of these new material, 
process and system changes.
    Senator Brownback. Ed, did you have some comment on this? 
Mr. Bolen?
    Mr. Bolen. Well, I think when we looked at this from the 
commission, one of the things that we saw as somewhat of a 
historical shift. I think we felt that 30 years ago a lot of 
the goals of the space program, the military, the civil 
aviation, were roughly the same. We wanted to fly a little bit 
further, we wanted to fly higher, we wanted to fly faster. I 
think what we have seen more recently is that the end goals of 
some of our different disciplines are different.
    The military, for example, is now very interested in 
stealth technology. That is not something that spins off well 
to the commercial side.
    Senator Brownback. I am particularly interested in that.
    Mr. Bolen. The commercial side--no, I mean, the commercial 
side is very interested in flying quieter and flying cleaner. 
Well, that is not to say the military does not care about it, 
but that is certainly not their first priority. That is not how 
we have set it up. So I think we have had a divergence of goals 
so they do not naturally--the technology does not naturally 
flow back and forth as well as it could.
    But I think we do have--certainly with the general aviation 
community and NASA, I think we learned through the program, the 
AGATE program that was discussed, we did learn that 
collaboration and cost sharing was very, very helpful. But I do 
not think you can ever have too much collaboration 
communication.
    What we need to do is have the industry talking to NASA 
about the type of basic research, pre-competitive level 
research, that we need done. Then let the companies themselves 
try to take those products and make them marketable, but also 
working with the FAA to know that, hey, if we got this 
technology----
    Senator Brownback. It could be certified.
    Mr. Bolen.--could it be certified? And we do not know that. 
And so I think what we need is--we have got better 
communication now, but we need to have all the Federal agencies 
talking to each other, and we need to have industry involved, 
and I think that is a fundamental part of the commission report 
at every level--better Federal coordination, better industry 
involvement and interface with the government.
    Senator Brownback. Mr. Dietz and Dr. Tomblin, Mr. Bolen 
mentioned about propulsion systems. And I take really from what 
you are saying is that at the root of all this is the engine of 
it, and we need most to focus there. Would that be correct, Mr. 
Bolen, in summarizing your comment on propulsion?
    Mr. Bolen. Yeah, I think history is pretty clear on that 
from a civil aviation standpoint. If you go back to the 
comments that Chairman Walker made about space, the propulsion 
systems in space are there, as well. It is figuring out how to 
get someplace reliably, quickly, cleanly. All of those things 
matter. And I think propulsion research is at the heart of 
that. That is the engine. And we can certainly build the 
aerodynamic systems around that.
    Senator Brownback. Do you agree that that is really where 
we need to focus, that most of the effort will be in that 
propulsion system?
    Dr. Tomblin. I agree that, like Mr. Bolen said, the 
aircraft is usually built around the engine. If you look in the 
commission's report, they mention the number of aircraft 
companies, and of new aircraft companies that hopefully will 
revolutionize their world with their cost and their speed. 
Those aircraft are essentially built around a new engine.
    Senator Brownback. Mr. Dietz?
    Mr. Dietz. I do not know I would characterize that all the 
research needs to be focused around propulsion. I would agree--
--
    Senator Brownback. Well, I am not--and I am not saying 
that, either, but I am just saying that your dominant area--you 
have always--you have got a number of parts in that plane, but 
your dominant focus right now really needs to be that 
propulsion----
    Mr. Dietz. Propulsion is certainly needs to be a key item, 
from the standpoint of we continue to need greater efficiencies 
but, at the same time, have to handle the noise, the emissions, 
and the other aspects that go along with that. So, yes, it 
creates some special challenges that certainly need to be 
addressed and will continue to make products more competitive.
    Senator Brownback. Mr. Dietz, you mentioned, too, about the 
systems, whereby air traffic systems--I think Boeing's done 
quite a bit of investment in the air traffic systems. Do you 
feel like that the current system in this country, air traffic 
system, is an antiquated one that really needs to have a lot 
more focus? And, if so, we will be able to have a much more 
efficient, be able to land more aircraft, takeoff more aircraft 
per airport?
    Mr. Dietz. I will go back to what I said was our highest 
priority, and that is the door-to-door travel time for our 
citizens. If you can make it convenient and low cost for people 
to travel, and they feel safe and secure in doing that travel, 
you will have more demand for travel, and this research can 
provide the enablers. And, therefore, we feel it is a really 
critical element of this initiative to provide that whole 
infrastructure of the transportation system that creates the 
environment for air transportation.
    Senator Brownback. Let me ask you this. If--and I have had 
some discussions with Boeing and some other people about, now 
you have to go to a Point A and then to B to where your final 
destination is. You are not going the most direct route, and 
there are issues of safety. But if you could go directly from 
Point A to B, instead of Point A to C and then to B in the 
process, how much travel time could we take off of flights 
going middle of the country, from the East or West Coast to the 
middle of the country, or--how much time are you talking about 
if we just use current technology and did it very safely, 
though, in a safe way?
    Mr. Dietz. The point-to-point, obviously, eliminates 
congestion in the hubs. And so that, in and of itself, creates 
some opportunities to make a more manageable airspace. So that 
is certainly an element of the capacity. But the other part of 
the capacity is managing that capacity, as well, dealing with 
the human factors that air traffic controllers and others have 
to deal with in managing that and really linking all the 
elements of the system together to where it is a truly network-
centric type of operation.
    Senator Brownback. Like how much could we cut off the 
travel time from Washington National to Kansas City if you had 
a more efficient air traffic system? Just to make it personal.
    [Laughter.]
    Senator Brownback. Just for example. I am calculating, 
here, my weekly commute.
    Mr. Dietz. Well, obviously, if it is a direct flight, the 
whole issue with door-to-door time is how soon do you have to 
get to the airport ahead of time, what kind of security issues 
do you have to deal with at the airport, what kind of issues 
does congestion in the airport deal with leaving on time and 
arriving on time? So it is a little difficult to speculate----
    Senator Brownback. Just the air travel from once we take 
off to once we land?
    Mr. Dietz. I believe the air travel would be relatively the 
same.
    Senator Brownback. Okay. Is that the case of most that is 
point-to-point, and the hubs----
    Mr. Dietz. Obviously, as you talk about longer distances, 
the ability to go point to point versus through a hub now 
enables you to stop the whole landing/takeoff pattern and the 
whole wait time in the airport and everything else, so that is 
when you begin to really affect the travel time, is by 
eliminating that stop in between.
    Senator Brownback. Senator Allen?
    Senator Allen. Thank you, Mr. Chairman, and thank you, all 
three gentlemen, for your insightful testimony. It is great to 
hear the various perspectives. And, Mr. Dietz, thank you for 
your support of the measure that Senator Dodd and I are 
introducing. And it is good to hear your views. There are 
different aspects of this, not just funding just across the 
board, there is focus on aircraft noise, fuel efficiency, 
emissions, research and development for civil supersonic 
transport which will necessarily be a function of propulsion if 
you are going to get up to supersonic. Sure, you can do the 
aeronautic aspect of it or the avionics and so forth, but you 
need to have the engine, whatever the propulsion system is.
    We do have rotor-craft research and development, as well, 
not something brought up here, scholarships for those who are 
studying in masters degree programs, and aeronautical 
engineering, weather, air traffic management--it is very 
important. And I have seen at NASA-Langley how some of the 
ideas on noise and better air traffic management and how they 
are working, that they--take O'Hare Airport; it is not theory 
how the noise pattern or the amount of noise, areas affected by 
noise, would be reduced--as well as better air traffic 
management, because it is getting more and more crowded. It is 
not just commercial aviation. It is general aviation, as well. 
And all of these, I think, are very important, and we have to 
increase our funding there and work in collaboration with the 
private sector, with colleges and universities, as well as a 
variety of governmental organizations, whether it is NASA, 
whether it is FAA, whether it is the Department of Defense.
    Dr. Tomblin, let me ask you this question. You summarized 
your remarks. In your written testimony that I was reading 
before, and you alluded to it, that the aviation industry today 
competes internationally. We have been talking about that and 
competition and how that is important and that it is different 
than it was in the past. Could you share with us or discuss 
with us the differences that you see, as far as that 
competition? And also, in doing so, could you share with us any 
observations you may have where others outside of the United 
States do a better job somehow than we do, and can we learn 
from that, or does it really matter?
    Dr. Tomblin. I think that a lot of the people that have 
testified here today have touched on this. And my experience in 
dealing with this actually comes personally. I mean, doing some 
consulting with foreign aircraft companies.
    And as Ed mentioned and Dennis mentioned, too, I see the 
United States industry, when I personally look at it, having a 
five-year vision. They have a five-year vision out. What 
changes is that I see the global competition having the 
hundred-year vision. And they will send a research product back 
that is ready to go to market--they will send it completely 
back--that, in my opinion, is totally new technology--back to 
the drawing board to get more cost out and greatly affect the 
performance when they already have a superior product to 
anything we produce. So that worries me, that not only do they 
have this step, but they are making this step-function 
approach. So that we still have the leadership now, I think, 
but it is becoming threatened if we do not do something.
    Senator Allen. Now, is that a function of corporate 
strategy or the? As you say, well, we look at it for five 
years, they look at it a hundred years.
    Dr. Tomblin. And I think it is----
    Senator Allen. Is that governmental? Is that corporate? Or 
is it?
    Dr. Tomblin. I think it is--personally, I see it as 
corporate. I mean, they have the money to throw into the 
research and development, where our companies do not put that 
much basic research funding in, not as much as, like, the--like 
you see from the automobile industry.
    Senator Allen. Well, I cannot recollect which one of you--I 
was going through the testimony. Maybe it was Mr. Bolen, or 
maybe you, yourself, pointing out where NASA's value is, is the 
basic research, and then the private sector comes in and 
figures out how to adapt that research to some commercial 
value.
    Now, it is not as if what--NASA's research would not have 
any application. Much of it will. But sometimes you get 
adaptations of utilization of that research, basic research, 
which maybe it is something that has nothing to do at all with 
aeronautics. But, nevertheless, if you have that predictability 
and stability in research and development funding, and it is 
not going to be a year or two-year fight--businesses will say, 
``Oh, gosh, I worry about the quarterly shareholders report or 
the annual report,'' let us say. If we have a plan that is 
clear in here, our goals in the supersonic transport is going 
to be not five years, that is 20 years, but regardless, if we 
have that credibility and stability of funding, rather than 
just fussing and fighting every appropriations year, that 
might--would you all think that could help in the private 
sector in your long-term vision, as opposed to saying, ``Gosh, 
we have done this. We have got to turn around and get some bang 
for this research''?
    Mr. Bolen. Yeah, I think that would be extraordinarily 
helpful, to have some certainty in the process. You have talked 
about nano-technology, for example. Well, if private-sector 
companies can be aware of what NASA is doing in nano-
technology, they can think to themselves, ``Well, if they get 
this, what would we do with it? How would we market it? How 
would set up? What would the production facilities look like?'' 
And if you know that it was not a basic research program that 
was subject to starts and stops, if you knew it was going to go 
on year after year, and you could make an assessment taking the 
funding out of the issue and getting down to the technical 
equation----
    Senator Allen. Right.
    Mr. Bolen.--then you can build a business plan that says, 
you know, ``Four years from now we want to be able to position 
our company to take advantage of nano-technologies. Here is how 
we would do it. We would take that basic research, we would 
turn it into this product. Here is how we would certify it.'' 
It would change the world an awful lot. So it would be 
extraordinarily helpful to have predictability in terms of the 
research programs and not have to go to the ups and downs of 
not knowing program starts and stops.
    I also wanted to point out, when you had asked a question 
earlier about the foreign competition, I think one of the 
things that we do here in the United States is that NASA does 
its research and then it is available to everybody. In Europe, 
they often do their research on a type of cost-sharing program 
with a company, and then that--it becomes proprietary to that 
company, that European company. So the U.S. companies cannot 
take advantage of European basic research, but European 
companies can take advantage of U.S. NASA research after a very 
short period of time. And I think, you know, that is an example 
of how other countries, other regions, that are interested in a 
long-term aerospace industry are looking at it.
    Senator Allen. Mr. Dietz?
    Mr. Dietz. I would just add, again, going to the stability, 
I believe that is a critical issue in the whole thing. If you 
know you have got a program that is planned, it is funded, it 
is not going to be chopped off, corporations can then do 
parallel research to start the application and driving the 
costs down and all the things it takes to put it in a product 
development program at the same time. Furthermore, you do not 
have the problems of staffing up, staffing down, and trying to 
retain those skills.
    We talked about the effect on our universities and 
institutions. One of the ways that you drive very high 
priorities in the institution is to turn out very well-educated 
people who see a long-term commitment that they know will be 
there when they graduate and can go into the industry. So I 
think in a lot of ways that long-term stability has a positive 
effect on what we do.
    Senator Allen. Thank you.
    Dr. Tomblin? It seems like you want to say something on 
this.
    Dr. Tomblin. I would just like to reiterate what Mr. Bolen 
said. That was probably one of the great successes of AGATE, is 
this cost sharing and knowing the funding was going to be 
there. The industry worked with the universities and with the 
government organizations, and we did not just stop when the 
final report came out, when the technology was in a report. 
Being an academic person, you know I love to write journal 
papers, and a lot of those journal papers, unfortunately, no 
one reads but other academics. So the nice thing about this 
program was that it took an academic study and turned it into 
an FAA policy and turned it into a part on a plane. That was 
the nice thing about that program.
    Senator Allen. Well, I think you all have given us the 
insight we need. What we need to do, Mr. Chairman, is not just 
listen to a journal report or read it, we need to take action 
on the variety of comments that have been made here, all very 
insightful.
    And I am one who is competitive, but this competition is 
not just business competition. This is important for the jobs 
of the future, for national security. The same applies in nano-
technology, where if we do not make the proper long-term 
investments there, the Europeans and the Japanese will be ahead 
of us. And that is a $1 trillion economic benefit there which 
has applications across all sorts of disciplines and fields.
    So count me as one of your allies. But mostly count me as 
an admirer of each and every one of you all and all our 
witnesses today. We are going to work hard together for the 
future, which is important for our jobs, for our economy, and 
our security.
    And, Mr. Chairman, I want to thank you. Thank goodness we 
have your leadership making sure that this Congress pays 
attention to this vital issue for our country.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you. Thank you, Senator Allen. I 
want to thank the panelists.
    And would just note that as we conclude the hearing, we 
will leave the record open for the requisite number of days so 
you can submit further statement if you would like, but I leave 
this hearing uneasy. It is like we are celebrating a hundred 
years, a hundred years ago, the Wright Brothers took off Kitty 
Hawk. We had that short flight with lots of successes along the 
way, broke the sound barrier here, the first people on the 
moon, the space shuttle program, the things that we have done, 
and yet I am uneasy that we are losing the edge. I mean, I 
guess that is the cumulative of what I am hearing from 
everybody here, is we have not lost it yet, but if we are 
turning around and looking back, they are gaining on us. And we 
have not developed necessarily the strategy that takes us on 
forward to the next century of American dominance in the 
aerospace industry, which I want to see it be. And you have 
provided us good thoughts and good food for thought.
    We have several legislative vehicles that will be looked 
at. It was mentioned here today, the Allen-Dodd bill. There 
will be some view towards funding for research efforts. And 
please feel free to contact our office--others, the Committee--
about where you think the best placement of effort and sources 
would be so that we can be secure in moving forward and 
maintaining the lead in this very, very vital field for our 
economy, for our future, for our safety and our travel, and 
also for our security.
    Thank you for coming. Thank you for traveling here. Thank 
you all for attending.
    The hearing is adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]


                            A P P E N D I X

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    The United States has long enjoyed a preeminent position in the 
aerospace industry. This position is now being challenged by Europe and 
other countries. Aerospace technology is not just a economic issue, but 
also one of national security. We must continue to pursue the 
development of new aerospace technology in order to maintain our global 
leadership.
    Today's hearing is to examine the National Aeronautics and Space 
Administration's (NASA) aeronautical research activities. We will hear 
about research and development's critical role and how the application 
of advanced technology is critical to this nation's economic 
competitiveness. The U.S. Aerospace Commission Report called for 
proactive government policies and long term public investment to 
address this issue. The Honorable Robert Walker the Chairman of this 
commission and other witnesses will discuss what is needed to enhance 
our current R&D initiatives.
    I am pleased to announce that I am currently working on legislation 
that implements much of what we will be discussing in this hearing. I 
want to significantly increase this nation's investment aerospace 
research engineering and development. I want NASA to develop new 
technologies that will reduce environmental issues such as pollution 
and noise. I want to ensure that America has a well trained cadre of 
aerospace engineers by offering scholarships and fellowships in 
aerospace education programs. Finally, I want to improve the 
coordination of aviation and aeronautics research programs between NASA 
and the Federal Aviation Administration. These additional investments 
are necessary to maintain our competitive position in aviation safety 
and technology and ensure our nation's aviation security.
    I look forward to our panels' testimony.
    Thank you Chairman Brownback.

                                  <all>

</pre></body></html>
